<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                  

                         [H.A.S.C. No. 116-76]

                    NATIONAL SECURITY CHALLENGES AND

                    U.S. MILITARY ACTIVITIES IN THE

                     GREATER MIDDLE EAST AND AFRICA

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 10, 2020


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-478                     WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------

                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
VERONICA ESCOBAR, Texas              MICHAEL WALTZ, Florida
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
ANTHONY BRINDISI, New York

                     Paul Arcangeli, Staff Director
                Jonathan Lord, Professional Staff Member
               Mark Morehouse, Professional Staff Member
                      Natalie de Benedetti, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     2

                               WITNESSES

McKenzie, Gen Kenneth F., Jr., USMC, Commander, U.S. Central 
  Command........................................................     4
Townsend, GEN Stephen J., USA, Commander, U.S. Africa Command....     6
Wheelbarger, Kathryn, Acting Assistant Secretary of Defense for 
  International Security Affairs, Department of Defense..........     3

                                APPENDIX

Prepared Statements:

    McKenzie, Gen Kenneth F., Jr.................................    62
    Townsend, GEN Stephen J......................................    79
    Wheelbarger, Kathryn.........................................    47

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Gallagher................................................   101
    Mr. Gallego..................................................   102
    Ms. Houlahan.................................................   101
    Mr. Rogers...................................................   102
    Ms. Torres Small.............................................   101

Questions Submitted by Members Post Hearing:

    Mr. Gallego..................................................   108
    Mr. Golden...................................................   111
    Ms. Houlahan.................................................   110
    Mr. Kim......................................................   110
    Mr. Lamborn..................................................   105
    Mr. Scott....................................................   106
    Mr. Vela.....................................................   109
    
                    NATIONAL SECURITY CHALLENGES AND

                U.S. MILITARY ACTIVITIES IN THE GREATER

                         MIDDLE EAST AND AFRICA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, March 10, 2020.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. We will call the meeting to 
order.
    This morning we are hearing about national security 
challenges and U.S. military activities in the greater Middle 
East and Africa as part of our ongoing posture hearings as we 
prepare for the fiscal year 2021 budget. This is basically the 
presentation of the President's budget for these regions.
    And we have witnesses this morning. Ms. Kathryn 
Wheelbarger, Acting Assistant Secretary of Defense for 
International Security Affairs. I think this is the first time 
we have seen you since the job change, so congratulations and 
welcome back. General Kenneth McKenzie, who is the Commander of 
the U.S. Central Command [CENTCOM]; and General Stephen 
Townsend, who is the Commander of the U.S. Africa Command 
[AFRICOM].
    Welcome, all of you. Look forward to hearing from your 
testimony about the very important regions that you are 
responsible for.
    And I think the big challenge as we are going through this 
posture hearing is the sheer number of challenges. And, you 
know, AFRICOM sort of got a lot of attention here recently 
because, as we focused on the pivot to Asia, the focus on great 
power competition, there was the notion that, well, what can we 
sort of not do anymore, and Africa popped up, mainly because I 
guess you are first in the alphabet for the blank slate review 
there. I don't think they did it that way, but you came up 
first anyway.
    But it did prompt a very interesting discussion about how 
the world is interconnected. And having just returned from a 
CODEL [congressional delegation] to Africa a few weeks ago, the 
great power competition is alive and well on the continent of 
Africa. So when we are looking at how we meet the national 
security challenges we have, we have to look at them in a 
broad, broad geographical way. Russia and China are certainly 
very active in Africa, as we are as well, so how do we meet our 
interests there? And I know there has been a lot of interest in 
that subject, and we will look forward to those comments from 
the members who ask questions about that.
    Obviously, Central Command has been the central focus for 
going on 20 years now. Between Afghanistan and Iraq and various 
activities in the Middle East, it continues to be a challenge. 
And while we are focused on great power competition, that great 
power competition, of course, is present in the Central Command 
as well, but we also have to continue to be worried about the 
threat from violent extremist organizations. And, you know, the 
lesson learned right back to 9/11 started in Afghanistan. An 
ungoverned space became fertile ground for a dangerous 
terrorist organization to find safe haven and plot and plan 
attacks against us and our interests, and that risk is still 
there. If we do not find partners in regions like the Central 
Command represents to deter those groups from forming, they 
will form, and they are still there; ISIS [Islamic State of 
Iraq and Syria], al-Qaida, and various other offshoots.
    So we have to have a plan to meet all of our challenges in 
a reasonable way within our budget. And I think these two 
regions are particularly ripe for a discussion of how we do 
that, because you can sort of look at the needs there and it 
can very quickly overwhelm you in terms of the resources we 
have available.
    Let me say I am a hundred percent confident with the best 
U.S. military the world has ever seen, with the number of 
partners that we have and the capabilities that we can bring to 
bear that we can absolutely meet those challenges, if we are 
smart. If we make the right resource decisions, if we manage 
risks in an appropriate way, and if we, you know, give our 
troops the support they need, I am a hundred percent confident 
that we can meet those challenges, even in complex parts of the 
world like the two that you gentlemen represent.
    Lastly, given what is going on in the world, we will need 
to hear from you about how the coronavirus is impacting your 
regions. Obviously, Iran is one of the most impacted countries, 
and how that affects things and how it is affecting your 
operations as we have seen, you know, various cancellations, 
travel restrictions, difficulties. Your perspective on how that 
is going to impact your areas of responsibility will be very 
helpful to informing us how we can help you do that. And that 
is all I have.
    With that, I will turn it over to Ranking Member Thornberry 
for his opening statement.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman. And let me join in 
welcoming each of our witnesses here today.
    And, General McKenzie, let me begin by expressing 
condolences at the loss of two Marines in Iraq within the past 
couple of days. My understanding is they were working with 
Iraqi forces to clear out ISIS from some tunnels in a complex 
there and have given the ultimate sacrifice to protect us here 
at home.
    I support the National Defense Strategy. I completely 
agree--and I think it makes sense to put greater emphasis on 
great power competition. I completely agree with the chairman 
that great power competition takes place all over the world. 
And his recent trip, as well as these two maps that are in 
front of us, show Russia and Chinese activity in Africa as one 
example. Also takes place in the Middle East and South Asia. It 
occurs all over the world.
    But the rest of the story is the job against terrorism is 
not done yet. They are certainly not finished with us, and we 
cannot wish it away and just presume that if we say peace has 
broken out, that they are going to leave us alone. And I think 
it is--you know, we get focused on different issues as time 
goes on. I think it is an important reminder that every day 
there are men and women risking their lives to protect us here 
at home from terrorist threat, and that is true in Afghanistan, 
it is true in Iraq and Syria, and it is true in Africa. It is 
true in a variety of places around the world. And so as we talk 
about great power competition, I don't think we can forget the 
other issue, and we certainly can't afford to walk away from 
it. And in y'all's two AORs [areas of responsibility], that is 
particularly true.
    I yield back.
    The Chairman. Thank you.
    Before we begin, two quick programming announcements. We 
are again going in reverse order on our questions, so we will 
start with me and Mr. Thornberry, and then we will go in 
reverse order. Second, we have a classified hearing after the 
public hearing, so we will stop exactly at noon and head 
upstairs to 2212 for the classified portion of this hearing.
    And with that, I will turn it over to Ms. Wheelbarger for 
her opening statement.

STATEMENT OF KATHRYN WHEELBARGER, ACTING ASSISTANT SECRETARY OF 
   DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, DEPARTMENT OF 
                            DEFENSE

    Ms. Wheelbarger. Good morning, Chairman Smith, Ranking 
Member Thornberry, distinguished members of this committee. We 
are grateful for the opportunity to testify today.
    I would like to start by thanking the men and women of the 
Department of Defense whose dedication and sacrifices enable us 
to achieve our objectives in the Middle East, Africa, and 
elsewhere. I would also like to recognize the strong 
collaboration and bipartisan support provided by this 
committee. As I said last year, as a former professional 
staffer on multiple committees in Congress, I understand that 
this is a vital institution, ensuring our military has the 
resources, oversight, and political legitimacy to succeed at 
the hard missions we give it. Congress also helps ensure we 
have civilian control of the military, as enshrined in the 
Constitution and required for the preservation of our 
democratic values. So thank you for all you do.
    As you know, our approach to the Middle East and Africa 
policy is guided by our National Security Strategy and our NDS 
[National Defense Strategy]. Our overall goals are to protect 
the American people, defend the homeland, and promote 
prosperity and peace from a position of strength. As you have 
heard numerous times, our NDS directs the Department to focus 
on near-peer competition, while remaining vigilant and 
countering threats from rogue states like Iran and North Korea 
and continuing to address violent extremist organizations like 
al-Qaida and ISIS.
    The need to address near-peer competitors requires us to 
make adjustments to our posture and avoid prioritizing near-
term problems at the expense of building readiness and capacity 
for high-end conflict in the future. As we do so, though, we 
must also deter and confront current adversaries while avoiding 
miscalculation or escalation that would distract and undermine 
our national security interests.
    In the Middle East, the United States strategy is to keep 
the region from being a safe haven for terrorists or dominated 
by any power hostile to the United States. The Department is 
focused on ensuring continued success against ISIS and al-
Qaida, strengthening deterrence and our defenses against Iran, 
and competing with China and Russia. This requires investing in 
sustainable partnerships as a whole-of-government effort.
    As to Afghanistan, our mission is guided by the President's 
South Asia strategy. As you are aware, on February 29, the 
President announced an agreement with the Taliban that is a 
major step toward political settlement, but it is just a first 
step. We have insisted to the Taliban that they abide by their 
counterterrorism commitments negotiated in good faith with all 
Afghan stakeholders and not restart violence. However, we are 
prepared for all eventualities. Our presence in Afghanistan is 
conditions-based, and future posture will be based on the facts 
on the ground.
    In Africa, the United States maintains a whole-of-
government approach to advancing security and stability on the 
continent. Our commitment to the Africa continent includes 
diplomatic, military, and economic efforts, and persistent U.S. 
presence is not the only measure of DOD's [Department of 
Defense's] commitment. Our commitment is demonstrated by our 
counterterrorism training and operations, our dynamic force 
employment, military training, exercises, foreign military 
sales, intelligence sharing, crisis responses, and emergency 
humanitarian assistance.
    So I will close by saying I think the Department is well 
positioned to address all the range of threats that we face. 
Our approach helps us meet a variety of present and future 
threats, while enhancing the strength and agility of our 
forces. Again, thank you for the opportunity to testify today.
    [The prepared statement of Ms. Wheelbarger can be found in 
the Appendix on page 47.]
    The Chairman. General McKenzie.

  STATEMENT OF GEN KENNETH F. McKENZIE, JR., USMC, COMMANDER, 
                      U.S. CENTRAL COMMAND

    General McKenzie. Chairman Smith, Ranking Member 
Thornberry, distinguished members of the House Armed Services 
Committee, thank you for the opportunity to testify here today. 
I am proud to testify alongside General Steve Townsend from 
AFRICOM and Ms. Katie Wheelbarger from OSD [Office of the 
Secretary of Defense] Policy. It is this partnership within 
DOD, across COCOMs [combatant commands], and between the 
interagency that ensures synchronized execution of the National 
Defense Strategy. My senior enlisted leader, Fleet Master Chief 
Jamie Herdel of the Navy, is also here with me today.
    Before I begin, I would like to recognize the sacrifice of 
Captain Moises Navas and Gunnery Sergeant Diego Pongo, who were 
killed in action against ISIS last Sunday in the Qara Chokh 
mountains in Iraq as part of Joint Task Force-OIR [Operation 
Inherent Resolve]. They will be remembered.
    Today, there are nearly 90,000 men and women serving within 
the 20 nations comprising Central Command as well as the 
headquarters in Tampa. I am proud of their remarkable 
dedication and humbled by their personal sacrifice. It is my 
honor to serve with them. They are young Americans in the line 
of fire, working to prevent attacks on the homeland, counter 
destabilizing regional influence, prevent the proliferation of 
weapons of mass destruction, and ensure the freedom of 
navigation through international waterways. Your annual and 
timely passage of both the National Defense Authorization Act 
and the defense appropriation bills honors their courage and 
sacrifice. I encourage you to maintain this tradition.
    Keeping a pledge from my confirmation hearing in December 
of 2018, I appear before you and offer my best military advice. 
My written statement highlights several nations and areas of 
interest within the Central Command, but my opening statement 
today will focus on Iran.
    The National Defense Strategy directs us to work with 
partners to deny the Iranian regime all paths to a nuclear 
weapon and to neutralize Iranian malign influence. This is no 
easy task. Iran is persistent and is growing its arsenal of 
ballistic missiles despite international condemnation.
    Iran remains the world's largest state sponsor of 
terrorism. Since May 2019, Iranian proxies and Shia militia 
groups in Iraq have increased attacks on U.S. interests and 
conducted scores of unmanned aerial system [UAS] reconnaissance 
flights near U.S. and Iraqi security force bases. The Iranian 
regime has attacked or seized foreign vessels in the Gulf, 
sponsored attacks by Houthi forces from Yemen into Saudi 
Arabia, continued the export of lethal aid to destabilizing 
groups across the region, and carried out an unprecedented 
cruise missile and UAS attack in September against oil 
facilities in Saudi Arabia.
    In early January, Iran launched more than a dozen ballistic 
missiles in a deliberate attack against U.S. and coalition 
forces at two bases in Iraq. This state-sponsored missile 
strike crossed the threshold compared to previous attacks and 
has probably set a lower bar for future actions by the regime. 
While periods of decreased tension may provide the illusion of 
a return to normalcy, ample intelligence indicates the regime's 
desire to continue malign activities that threaten lives, 
destabilize sovereign nations, and threaten freedom of 
navigation, regional commerce, global energy supplies, and the 
global economy itself.
    At CENTCOM, we recognize that so long as the U.S. applies 
diplomatic and economic pressure, the joint force must be 
postured to deter Iran from employing the military element of 
power to counter our actions. Our presence sends a clear signal 
about our capabilities and our will to defend partners and U.S. 
national interests. Going forward, it is CENTCOM's objective to 
posture forces in the region with the operational depth to 
achieve a consistent state of deterrence against Iran and be 
adaptable to future Iranian threats. The fiscal year 2021 DOD 
budget supports CENTCOM's ability to keep our forces agile, 
lethal, and adaptable.
    As we work with our partners to safeguard our mutual 
interests, we do so with the knowledge that we are stronger 
together. Key to building and maintaining regional partnerships 
is the authorization, the funding, and the employment of 
security assistance programs. Additionally, the National Guard 
State Partnership Program currently cultivates relationships 
and improves interoperability with six nations across the 
CENTCOM AOR with more considering entry. Again, the fiscal year 
2021 budget supports building new partnerships and forming an 
enduring Middle East coalition.
    As CENTCOM continues ongoing operations, we appreciate the 
efforts of our DOD civilian leadership. We acknowledge the 
teamwork of the interagency and thank the Members of Congress 
and your staffs without whose consistent backing we would be 
unable to accomplish our mission. In order for America's Armed 
Forces to sustain all-domain dominance, the Department requires 
your support as well as predictable, adequate, and timely 
funding.
    Mr. Chairman, Ranking Member, and committee members, thanks 
again for all you do for our troops and our families, and I 
look forward to your questions.
    [The prepared statement of General McKenzie can be found in 
the Appendix on page 62.]
    The Chairman. Thank you.
    General Townsend.

  STATEMENT OF GEN STEPHEN J. TOWNSEND, USA, COMMANDER, U.S. 
                         AFRICA COMMAND

    General Townsend. Chairman Smith, Ranking Member 
Thornberry, and members of the committee, good morning, and 
thank you for the opportunity to appear today. It is a 
privilege to be a part of and lead America's exceptional men 
and women of U.S. Africa Command, who are dedicated to 
protecting America and advancing her interests on the African 
continent. This morning, I am accompanied by my State 
Department foreign policy advisor, Mr. Russ Schiebel, and 
AFRICOM's new command senior enlisted leader, Marine Sergeant 
Major Richard Thresher.
    I would like to take a moment to honor the memories of 
three Americans: U.S. Army Specialist Henry J. Mayfield, Jr., 
Mr. Bruce Triplett, and Mr. Dustin Harrison, who lost their 
lives in the service of our Nation on January 5 at Manda Bay, 
Kenya. To their families, our thoughts and prayers are with 
you. Your loved ones died while protecting the American people 
from the very real threat of the al-Qaida and Al Shabaab 
terrorist groups.
    I am here this morning with my battle buddies and friends, 
Ms. Wheelbarger and General McKenzie, to discuss shared 
challenges and opportunities in our areas of responsibility, 
while furthering joint force readiness. Africa overwatches a 
global crossroads with strategic chokepoints and sea lines of 
communication that are essential to global commerce and 
critical to U.S. operations in the world. Our future security 
and prosperity rests on our strategic access and influence in 
Africa in times of crisis.
    U.S. Africa Command is engaged in an ongoing blank slate, 
now COCOM review. In concert with the Department of Defense, we 
have developed a prioritized list of objectives and actions to 
protect the homeland and secure our strategic interests in 
Africa, while focusing the American taxpayers' investments in 
the right areas.
    Africa is key terrain for competition with China and 
Russia, who are aggressively using economic and military means 
to expand their access and influence. I believe Africa offers 
America a competitive edge over China and Russia, and we should 
take advantage of it. We will grow more efficient to contribute 
to higher defense priorities and refocus resources to global 
power competition, but we cannot take pressure off major 
terrorist groups like ISIS and al-Qaida. These groups and many 
others remain an inconvenient reality in Africa. While we 
should not try to confront each one, we should remain resolute 
in confronting those who threaten American interests in the 
region and the American homeland.
    Today, AFRICOM does that using a very light and relatively 
low-cost footprint by supporting African and international 
partners who are leading these efforts.
    In my first 8 months on the job, I have learned that small 
investments, a few troops and a few bucks, can go a long way 
and make a real difference in Africa. Our whole-of-government 
and partner-centric approach acts as a force multiplier to 
address Africa's many complex challenges. What AFRICOM 
accomplishes with a few people and a few dollars on a continent 
3\1/2\ times the size of the continental United States is a 
bargain for the American taxpayer and low-cost insurance for 
America. A secure and stable Africa remains an enduring 
American interest. U.S. Africa Command remains ready to protect 
and advance American interests and respond to crises in Africa.
    Mr. Chairman and members of the committee, thanks for your 
continued support to our Armed Forces. I look forward to your 
questions.
    [The prepared statement of General Townsend can be found in 
the Appendix on page 79.]
    The Chairman. Thank you.
    General McKenzie, and actually, Ms. Wheelbarger as well, if 
you can answer a question about the Taliban peace treaty, and 
understand the negotiations that we have had with the Taliban, 
but the key part now is the Taliban negotiating with the Afghan 
Government. That seems problematic. And I support the effort to 
try to find a peaceful solution here to enable us to reduce our 
footprint and rely more on partners, but how do you see that 
negotiation between the Taliban and the Afghan Government 
going? What needs to happen in order for this peace agreement 
to go forward?
    Ms. Wheelbarger. I will begin, recognizing this is largely 
a State Department lead and my colleagues in IPSA [Assistant 
Secretary of Defense for Indo-Pacific Security Affairs] as 
well, but from our perspective, from the Secretary's 
perspective, as he said, the peace agreement is not perfect, 
but it is a good first step, and the inter-Afghan dialogue is a 
key component of that. We do have suggestions as late as this--
or this morning before I left that there might be somewhat an 
offer from President Ghani to provide some prisoner releases. 
That is a basic part of the initial agreement between the U.S. 
and the Taliban. That was not part--you know, the Afghans were 
not in that piece of--the Afghan Government was not a piece of 
that part of the agreement, but I do think we might have actual 
successful, good-faith efforts, maybe even today, that we will 
get the intra-Afghan conversation started.
    The Chairman. And, General McKenzie, how is it affecting 
operations at the moment?
    General McKenzie. Sir, thank you. The Taliban need to keep 
their part of the bargain, and they are continuing attacks. 
Those attacks are relatively low in scale. They are not 
directed against coalition forces. They are not occurring in 
city centers. They are occurring at isolated checkpoints, but 
those attacks are occurring, and they are not consistent with a 
movement toward a negotiated settlement and they are not 
consistent with the undertaking they made.
    The Chairman. Thank you.
    General Townsend, focusing on West Africa in particular, I 
was alarmed when I was there at the growing threat from the 
violent extremist organizations in the region. Burkina Faso, 
Mali, and Niger, to varying degrees, their governments are all 
under pressure. There are portions of their country that are 
increasingly outside of their control. How do you see that 
fight going in those three particular countries, and what do we 
need to do to stop the spread of those groups? And I guess the 
other question would be where do you see the risk that those 
groups will use those safe havens to plan larger operations?
    General Townsend. Chairman, in West Africa in the Sahel 
region, I think that the Western and international and African 
efforts there are not getting the job done. ISIS and al-Qaida 
are on the march in West Africa. They are having success and 
international efforts are not.
    So why is that? I think that there is--you know, the 
African partners there don't have a lot of capacity or 
capability. There is a lot of Western assistance going in 
there, European-led, French-led and European-led, with the U.S. 
in support. I think it is insufficient and it is uncoordinated. 
I think the French and the Europeans have recognized this and 
they are taking steps to make it better coordinated. Those 
efforts might actually be sufficient if they were better 
coordinated.
    If we don't turn this around in West Africa, I think it 
becomes a growing threat in the region. I think the threat will 
begin to impact on the littoral states. It has already started 
to reach the northern fringes of the littoral states. I think 
that Europe can and should do more before America should do 
more in this part of the world. I think the problems that 
manifest from West Africa will manifest in Europe before they 
manifest in America. But I do believe that if ISIS can carve 
out a new caliphate or al-Qaida can, they will do it, and they 
will attempt to do it in West Africa.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Let me just follow up on the chairman, 
really, and General McKenzie and General Townsend, would each 
of you give us a thumbnail sketch of the terrorist threat in 
your AORs? I know we will have more detail when we go to 
classified setting, but I think it is important for all members 
and the American people to know, is this threat still there? 
Kind of what does it look like, how is it evolving, that sort 
of thing?
    General McKenzie. Thank you, sir. I will begin and go from 
east to west. So in Afghanistan, the principal threat that 
could threaten our homeland or the homelands of our allies and 
partners is either ISIS-K [Islamic State of Iraq and Syria-
Khorasan Province] or elements of al-Qaida. Both of those 
forces are under considerable pressure now from us. They are 
pushed up into the east of Afghanistan. If unrelenting CT 
[counterterrorism] pressure is maintained, it is likely they 
will find it very hard to achieve a degree of coordination 
necessary to attack us. We believe that if that pressure is 
relieved at some point in those ungoverned spaces, they would 
regain that capability. So that is one thing.
    The next thing I would note is the Taliban actually does 
not entertain attack plans against the United States. They are 
a regional entity. There are good reasons why we are conducting 
and have been conducting operations against them because of the 
fact they host two other organizations that actually have sworn 
to destroy us. But the Taliban themselves are not poised or 
have any background of attacking, you know, certainly not 
attacking our homeland.
    I would tell you in the far west end of the theater, in the 
Idlib pocket, there are remnants of al-Qaida and remnants of 
ISIS that do entertain attack plans against us. They are being 
compressed right now. It is hard for them to generate those 
attacks at the moment because of the conflict that is going on 
out there. And that conflict, while it does have the effect of 
limiting their ability to operate against us, is also going to 
have profoundly horrific humanitarian outcomes in the western 
part of Syria. So we watch that carefully.
    In the south, in the Arabian Peninsula, AQAP [al-Qaida in 
the Arabian Peninsula] still has visions of attacking the 
United States. They are under pressure and find it hard to 
realize that, but if left unconstrained, undoubtedly they would 
regenerate and present a threat to us as well.
    Last, I need to mention the largest state-sponsored terror 
organization in the theater, the Iranian Threat Network, 
whether it is Shia militia groups in Iraq, Lebanese Hezbollah, 
or Kata'ib Hezbollah. All of those entities entertain, to some 
degree, a desire to attack Americans generally in the theater, 
but Iran's reach is not only regional, it is global, and in 
fact, as you know, has been manifested a few miles from where 
we stand right now.
    General Townsend. I will go from west to east. In West 
Africa in the Sahel, as I was just discussing a moment ago, the 
threat there is both ISIS and al-Qaida. Al-Qaida has an arm, a 
branch there called JNIM, Jama'at Nasr al-Islam. That group is 
as part of al-Qaida as any group is on the planet, and they are 
a growing threat there. And what is the interesting dynamic 
that we see in West Africa that we don't see in other parts of 
the world, there, al-Qaida and ISIS cooperate with one another. 
I can't really explain that, and I have been asked before if I 
thought that might be something new that we would see growing. 
I don't think so. I think it is a local phenomenon, that these 
folks have grown up with each other, known each other all their 
lives, one joined one gang, one joined the other, and so they 
cooperate with one another.
    This threat, if it grows, if it continues to grow at the 
pace it has--and we are seeing a fivefold increase since last 
year just in the Sahel alone--we are going to see that threat 
emerge and manifest in the littoral states of West Africa. I 
think unchecked, this threat becomes a threat beyond the 
region.
    Moving to the north, we have ISIS there in Libya. That 
threat has been significantly reduced, and we are keeping close 
watch on that to ensure that it stays that way. And we have 
been able to do that with work with both sides of the Libyan 
Civil War. They have both supported our counterterrorism 
efforts there.
    Moving to the east, there is a small presence of ISIS in 
Somalia and East Africa, but it is not of great operational 
concern, but Al Shabaab is. Al Shabaab is the largest and most 
kinetically violent arm of al-Qaida, and they are a serious 
threat to not only the Somali people but the entire region. One 
example is a recent attack in Kenya. Another example is their 
threats to embassies in the region outside of Somalia. I can 
discuss more about the threat of Al Shabaab in a closed 
hearing.
    I will just say that I am of the belief that Al Shabaab 
today poses a significant threat to American interests in the 
region, and that threat would continue whether we were in 
Somalia or we were not in Somalia. And I also believe that if 
left unchecked--and we have been putting a fair amount of 
pressure on Al Shabaab--if left unchecked, I believe that that 
would manifest into an international threat.
    The Chairman. Mrs. Luria.
    Mrs. Luria. Well, thank you.
    And it is great to go at the beginning so we can talk about 
aircraft carriers up front. So I wanted to start with General 
McKenzie. Recently, the Abraham Lincoln completed the longest 
deployment for a carrier since the Vietnam war, and that was 
due to a casualty on the Harry S. Truman which made it unable 
to deploy on time. I was just giving that background to focus 
on how vital is it to your completing your mission to have a 
continuous carrier presence in the Gulf?
    General McKenzie. So the aircraft carrier brings mobility. 
It brings offensive firepower, it brings defensive firepower. 
We can position it, we can move it around. It complicates an 
adversary's targeting, so it is a uniquely American piece of 
capability. Additionally, the virtue of the aircraft carriers, 
there are no access basing and overstrike restrictions that 
operate on forces that launch from that carrier, so that gives 
me great flexibility. Having said all of that, it also has a 
profound deterring effect, principally upon Iran. They know 
where the carrier is. They track the presence of the carrier. 
And I view a carrier as a critical part of a deterrent posture 
effective against Iran.
    Mrs. Luria. So that actually leads into what the next part 
of my question would be is, if you were to deploy Air Force 
assets to the region, would you feel that you could have an 
equivalent deterrent effect by Air Force and a combination of 
other assets in the region if you were not to have a continuous 
carrier presence?
    And then secondly, has the carrier presence or any of our 
presence actually deterred any of the recent Iranian 
aggression? Because they continue to harass, aggress, even 
though we are putting more forces there, so I was wondering 
what your assessment of that was.
    General McKenzie. Sure. So I tend to think of land-based 
air power as complementary to sea-based air power. Again, we 
can use them both. They both bring unique capabilities. Again, 
the particular and unique advantage of sea-based air power is 
it launches from a piece of United States sovereignty, so there 
are no restrictions that will be placed on where those 
airplanes go or what they do, which gives the Commander in 
Chief significant flexibility as we look at what we might want 
to do. So that is the military component of it.
    It is my best judgment that we have reestablished a form of 
rough deterrence, what I would call contested deterrence with 
Iran in the wake of the strike on Qasem Soleimani and the 
attack on our bases. And part of that is based, and part of 
that deterrence is obtained by our obvious force presence in 
the theater, force presence that was not there in the spring of 
2019 that led them to undertake the cycle of violence that 
culminated in January.
    Mrs. Luria. Thank you. And pivoting more on that continuous 
presence, and I would switch to Ms. Wheelbarger. Recently, and 
in your statement here, you discuss dynamic force employment. 
And in January, as the Lincoln was heading home, a spokesman 
for Naval Air Forces, San Diego, said the new Navy deployment 
model of dynamic force employment means less predictable 
deployments will become more routine, so less predictable will 
be the routine.
    And the statement went on to say the length of this 
deployment is not ideal or something that is going to become a 
regular thing, but they are not going to be as predictable as 
they were in the past. Our crews and family should, prior to 
deployment, discuss the possibility of something like this, 
i.e., an extended deployment happening. Do you think that the 
extension of the Lincoln was an example of what you really mean 
by dynamic force employment, and should we expect deployments 
to be of longer duration, 8 months, such as the Lincoln, in 
order to satisfy these requirements in these AORs?
    Ms. Wheelbarger. Thanks for the question. I don't think we 
saw that particular example as a key example of dynamic force 
employment. We want----
    Mrs. Luria. So you think that was a misstatement by the 
spokesman for----
    Ms. Wheelbarger. No. I think what we want to see is that 
dynamic force employment allows us to be, as I think the 
spokesman was trying to say, strategically predictable but 
operationally unpredictable, but we have to have the kind of 
forces that can respond to current events, both, you know, 
based on the adversary, but also based on the situations within 
our forces.
    Mrs. Luria. Would you say that----
    Ms. Wheelbarger. So I wouldn't say that the extension is--
that is common, but it is something we are going to need to be 
prepared for.
    Mrs. Luria. So would you say that we have been able to 
respond adequately when we had the delay in the Harry S. Truman 
and the extension of the Lincoln? For the combatant commander 
specifically, and specifically for CENTCOM, have you felt that 
the Navy and the carrier fleet has been able to respond 
adequately to meet your needs for deterrence within the region?
    General McKenzie. Through heroic efforts and just 
tremendous flexibility, yes, they have been able to do that. I 
am keenly aware of the total burden that places on the Navy in 
particular and the joint force in general when they meet these 
requirements.
    Mrs. Luria. Thank you.
    And I yield back.
    The Chairman. Thank you.
    Mr. Waltz.
    Mr. Waltz. Thank you, Mr. Chairman.
    And I certainly share the condolences for the two Marines 
that we just lost fighting ISIS. And I think that dynamic, 
fighting ISIS right now, a resurgent ISIS in Iraq and what we 
just went through in Syria, is exactly what we want to prevent 
happening in Afghanistan and Pakistan.
    General McKenzie, you just mentioned a moment ago, you just 
testified that we have sufficient pressure on ISIS and al-Qaida 
to keep them on their back foot, but if we relieve that 
pressure, they could be and would likely be resurgent.
    So let's just fast-forward a bit. Let's presume the Taliban 
is sincere about peace. They enter into a process with the 
Afghan Government. They meet all of our conditions for a full 
withdrawal in 14 months, although I have a lot of questions 
about what those conditions are, which I will hold for the 
classified setting. But let's presume all of that happens. I am 
struggling to wrap my mind around how the Taliban has the 
military capability, even partnered with the Afghan Army, which 
I think we would agree is not independently operable at this 
point, to keep that sufficient pressure on half the world's 
terrorist organizations in one of the most difficult places in 
the world.
    So how does that--help me understand. Help all of us 
understand how that happens in the absence of U.S. forces. Does 
the Taliban have the military capability along with the Afghan 
Army to keep sufficient pressure?
    General McKenzie. So over the last several months in 
eastern Afghanistan, we have watched the Taliban compress and 
crush ISIS presence on the ground in the southern Nangarhar 
Province, and they have been very effective doing that. That is 
some of the worst terrain in the world. They paid a very steep 
price in their own fighters.
    Mr. Waltz. Was that independent of our support?
    General McKenzie. There was very limited support from us, 
and I would characterize that as very limited support from us. 
So they have demonstrated capability to do it. It was a bloody 
mess, but they did it. In fact, ISIS really now no longer holds 
ground in Nangarhar Province. They are trying to reestablish 
themselves up to the north in other provinces, and it remains 
yet to be seen if they are going to be successful doing that, 
and we will know over time if they are. But they have 
demonstrated the capability to do that. Frankly, sir, it is 
more a question of will than capability, and that will have to 
be developed in the fullness of time. I defer to no one in my 
distrust of the Taliban, but we will have the opportunity----
    Mr. Waltz. Just to be clear--sorry, I have limited time. 
You believe in the absence of all U.S. forces, your military 
advice, the Taliban and the Afghan Army have sufficient 
military capability to keep all of those, not just ISIS, al-
Qaida, everything that exists in Pakistan, to keep them at bay, 
to keep the homeland safe. And I would just remark that we all 
know that if we have to fight our way back in, that we will be 
tending, I think, many more funerals than a current sustained 
pressure campaign with limited forces.
    General McKenzie. First of all, I share those concerns. I 
think those are very reasonable concerns. It is less a 
capability than it is a question of will, and it is less a 
question of will against ISIS than it is against al-Qaida. And 
those are things that we are just going to have to see in order 
to believe as we go forward, as conditions are set or they 
either meet those conditions or they don't meet those 
conditions.
    Mr. Waltz. If we shut down Bagram Air Base, I think it is 
important to have on the record here, in Syria and Yemen and 
other places, we have basing capabilities around those 
countries, whether it is Incirlik, Idlib, Djibouti. What do we 
have around Afghanistan should those presumptions, should they 
not have the capability, the Taliban and ANA [Afghan National 
Army], what other bases do we have in terms of a plan B to be 
able to conduct operations into Afghanistan and the FATA 
[Federally Administered Tribal Areas] or western Pakistan?
    General McKenzie. Well, sir, so right now, we are executing 
the withdrawal----
    Mr. Waltz. In the absence of Bagram. I mean, assuming 
playing this all out, we withdraw all forces.
    General McKenzie. So we have no plans beyond going to 8,600 
right now. No one has given me any guidance to go to a lower 
number.
    Mr. Waltz. There is a public statement of zero forces, full 
withdrawal, in 14 months.
    General McKenzie. There is; however, we have not developed 
military plans to that end yet.
    Mr. Waltz. Okay. I think it is also worth noting that we 
still have an American hostage held by the Taliban, just taken 
in the last few months, so I would be extremely concerned to 
see Taliban prisoner releases while the Taliban and Haqqani 
network are holding a U.S. citizen, former Navy diver, hostage.
    And then the last piece. In terms of great power 
competition, I can't think of another American military base or 
coalition military base now that Manas is gone besides Bagram 
on China's western flank. Can you talk to the western flank of 
China and what platforms we have there?
    General McKenzie. Sir, the platforms we have are 
intermittent platforms as we go in and conduct joint training, 
but we have no permanent platform up in the Stans as you noted, 
sir.
    Mr. Waltz. Thank you, everyone, for your service. I 
appreciate your testimony.
    The Chairman. Ms. Escobar.
    Ms. Escobar. Thank you, Mr. Chairman, and let me----
    The Chairman. I am sorry. I apologize. I am sorry. I was 
right. Ms. Escobar, go ahead. Sorry. We will start over.
    Ms. Escobar. Thank you, Mr. Chairman.
    And many thanks to our witnesses for your presence here 
today and for your service. And I just want to say at the 
outset, obviously we all want to see peace happen. We are 
hoping for successful conversations between the Taliban and the 
Afghan Government, but I do have some serious concerns, General 
McKenzie. Secretary Esper has authorized the drawdown to the 
8,600 troops. That is happening. That is happening before the 
deal between the Taliban and the Afghan Government is sealed 
and worked out.
    Given recent events, especially our need to strike against 
Taliban fighters just days after we signed the peace deal, what 
confidence do you have in the Taliban honoring their 
commitments to us? You keep saying it is not a question of 
capacity but that it is more a question of will. What 
confidence do you have in that will?
    General McKenzie. So I have no confidence, because I am 
going to be driven by the observed facts. Either they will draw 
down the current level of attacks or they won't. And if they 
are unable to draw down the current levels of attacks, then 
political leadership will be able to make decisions based on 
that. But it doesn't matter whether I am optimistic or I am 
pessimistic; we will see what happens on the ground.
    To date, Taliban attacks are higher than we believe are 
consistent with an idea to actually carry out this plan. That 
may be because the Taliban has made a decision at the top to 
continue those attacks and press us. It may be because the 
Taliban's leadership is fractured, and it takes a while to get 
all this down to the subordinate leaders. Their command and 
control is not as effective or as rapid as ours. We will know 
very soon on that.
    But I would say, first of all, right now, attacks are 
higher than we want, although they have not chosen to attack 
coalition forces. They have not chosen to attack inside the 
major urban areas, although ISIS has conducted some of those 
attacks. So we will see what happens going forward.
    The last point is we are going to go to 8,600, and we are 
going to achieve that here by the middle of the summer. It is 
my best judgment and the judgment of the commander on the 
ground, General Scott Miller, that we can be very effective in 
our CT efforts at that force level.
    Ms. Escobar. What is our plan specifically, and who makes 
the determination about when that line is crossed, when we have 
had enough, when we are not seeing enough progress? Are there 
specifics? I understand you may not be able to divulge those in 
an unclassified setting, but are there very specific measures 
that we will be using? Is it somebody's sense?
    General McKenzie. So we have a very sophisticated system 
for tracking attacks, how many were initiated, how many 
casualties were caused as a result of those attacks, where 
those attacks occur. We report that, and I have a 
recommendation on that. General Miller has a recommendation on 
that. It goes to the Chairman or the Secretary. The decision 
about what is tolerable and what is not tolerable is not a 
military decision. That is a political decision, a policy 
decision. I defer that to Ms. Wheelbarger to talk about.
    Ms. Wheelbarger. I will just add what I have heard the 
Secretary, and I think you have probably heard the Secretary 
say in response to Mr. Waltz' question as well, 14 months of 
going to zero is an aspirational benchmark based on the 
conditions being achieved. The Secretary is well prepared to 
look at the terrain in a few months and see what the Afghans 
and the Taliban have come to. And he is prepared, as he has 
said to me, and I think he has said to the committees, to 
readjust our force posture up or down based on what the 
conditions require to achieve our objectives, which are to 
continue to ensure Afghanistan is not a safe haven for 
terrorists who could particularly hit the homeland. So he is 
prepared to look at the truth on the ground and make decisions 
accordingly.
    Ms. Escobar. Thank you. And, Ms. Wheelbarger, we know that 
we are at the beginning of the process, and understandably, we 
have got to wait and see and have high hopes, but, you know, 
obviously keep close watch. But the intra-Afghan dialogue 
phase, which was supposed to start today, has been delayed. How 
do we know this is not just the Taliban trying to run out the 
clock?
    Ms. Wheelbarger. Sure. I mean, like I said, before I 
arrived this morning, I did ask if there were any updates, and 
it did seem like there might be sort of a fig leaf from Ghani 
coming down. We actually will start those conversations today. 
I think all of us have to remain somewhat skeptical that this 
is going to work precisely as planned but remain open and 
flexible to the Afghans over time working this out with 
themselves. But again, our interests are continuing to put 
political pressure on them to achieve that objective, while 
continuing to have the military platforms and posture to allow 
us to achieve our national security requirements.
    Ms. Escobar. Perhaps not beginning the withdrawal so soon 
would have helped provide some leverage for the Afghan 
Government.
    I yield back. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Mitchell.
    Mr. Mitchell. Thanks, Mr. Chair.
    First, let me start by thanking you all for your service. 
For those you command, you are in a tough neighborhood some 
days, many days, and I appreciate it.
    Let's stay on the subject of Afghanistan which seems to be 
significant. If I have time, I will hop to Syria just to keep 
us entertained here. I think Mr. Waltz' comment, which I want 
to reinforce, is that General McKenzie, correct me, but I think 
with the ability to manage or to keep ISIS under control in 
Afghanistan very much depends upon the Taliban working with the 
Afghan Army in some cooperative manner to manage that or to 
keep that under control. Yet we haven't exactly seen that the 
Taliban seems interested in doing that. Am I mistaken in my 
impression at this point in time?
    General McKenzie. You are correct, we have not seen any 
movement in that direction. I would agree that coming to some 
ability to operate together or at least in a complementary 
fashion is going to be critical to their movement forward.
    Mr. Mitchell. Well, in keeping with Mr. Waltz' question, 
the reality is, is while zero may be an aspirational goal, the 
point that he makes which, with all due respect, sir, you 
avoided, was if we withdraw from Bagram, if they run out the 
clock, don't attack coalition or U.S. forces, continue the 
current mode they are at, we then have to face going back in, 
because it is my impression we don't have an alternative kind 
of staging in that area. Is that incorrect? Leaving Bagram is a 
problem.
    General McKenzie. If we were to pull out completely from 
Afghanistan, you are correct. We have looked at all kinds of 
over-the-horizon options, and none of them are particularly 
good. Back in 2001, 2002, it was very difficult to get into 
Afghanistan in the first place. Those problems would present 
themselves again, so I acknowledge that.
    The only point I would make is--and again, I emphasize I am 
not optimistic or pessimistic; I am just going to be driven by 
the facts here as we see it. Over a 14-month period, the 
Taliban are also going to be acted upon by the Afghans, so it 
is not strictly that the Taliban have a perfect secret plan to 
take over. You know, there are a lot of people in Afghanistan 
that have a strong view of the Taliban, and the Taliban 
consistently polls at about 12 percent popularity in 
Afghanistan. So they face their challenges too, and we should 
not assume that they will run to victory as we withdraw.
    Mr. Mitchell. Ms. Wheelbarger, if you could relay, I think, 
to Secretary Esper, and maybe if you get a chance to relay to 
the Secretary of State, I am not sure it is an adequate 
standard to say so long as the Taliban dial back or stop 
attacks on coalition and U.S. forces, that we are comfortable 
saying it is all good in Afghanistan. I support we don't want 
to be there. We have been there far too long now, but the idea 
that so long as you don't bother us, we will go away and hope 
you don't bother anything in the future is--let me put it this 
way. I told my management staff when I ran a company, hope is 
not a plan; it is the last step before desperation. And we need 
to have more indication that the Taliban and Afghans can 
actually work in some manner cooperatively before we just walk 
away and say we are done with it, because we do not want to 
have to go back in. That would be catastrophic.
    Ms. Wheelbarger. Understood. I will relay that back. I do 
think part of the conditions that we expect the Taliban to live 
up to is ensuring that they are not renewing their 
counterterrorism activities that brings insecurity and lack of 
stability to the entire country. I mean, I have heard the 
Secretary say numerous times that he is prepared to ensure that 
we will defend our interests. And that is, again, going after 
the terrorist elements that will now or in the future pose an 
external operations threat to us.
    Mr. Mitchell. Well, our interests also included the one 
U.S. Armed Forces hostage that the Taliban hold.
    Ms. Wheelbarger. Understood.
    Mr. Mitchell. And if I were in a different seat, and I am 
not, I am in this seat, there is no way in God's green Earth I 
would sign off any agreement until that hostage was put in 
front of me in good condition. The idea they are holding a 
member of our Armed Forces and we signed some agreement offends 
me, and I think, frankly, if I asked privately the gentlemen 
sitting to your left, I am not sure they wouldn't be equally 
offended. We want him back, and we want him back now, and we 
want him back in good shape.
    Ms. Wheelbarger. There is one thing I will add. I think 
this administration has been very, very focused on hostage 
releases and rescues, so it continues to be a priority, but I 
take your point.
    Mr. Mitchell. Well, focused is one thing. Somebody needs to 
relay the message that it is not acceptable. I am offended by 
it.
    Quickly, if I can make a comment about Syria. I think 
someone needs to explain to--I am not sure our commanders as 
well, but also to the forces on the ground and the American 
people what our objectives are in Syria. They seem to keep 
changing dramatically, and it is not helpful. It is not helpful 
to our allies. It is not helpful to our forces on the ground. I 
am not sure we understand them here. I was pretty blunt about 
my assessment that these mercurial changes simply do not allow 
for an effective command in Syria and leave us vulnerable. So 
someone needs to explain to Congress and remind the gentleman 
sitting to your left what our objective is in Syria and when we 
define that we have met that objective and we are prepared to 
leave. So I will ask simply, someone sometime, please, because 
that would be helpful.
    The Chairman. Thank you. The gentleman is out of time.
    Mrs. Trahan.
    Mrs. Trahan. Thank you, Mr. Chairman.
    General McKenzie, thank you for being here. You recently 
indicated that your biggest concern in the near term was not 
necessarily a direct Iranian attack; it is their proxies in 
areas like Iraq and Syria where they could come against us. And 
in your written testimony, you also indicated that ample 
intelligence points to Iran's desire to continue malign 
activities that threaten Americans' lives. So can you please 
describe the threat of Iranian retaliation as you understand 
it, conventional or by proxy forces, to us, our soldiers, and 
to our allies?
    General McKenzie. Certainly. So we believe that Iran has a 
long-term vision of ejecting the United States from the 
theater, from the Central Command region, and specifically the 
place where they would like to see that first would be in Iraq. 
That is the place that they would like to start. So they would 
believe they can apply considerable pressure on us, raise the 
level of pain high enough so that we would come out. They have 
a lot of tools to do that in Iraq. They have a large Shia 
militia group there, numbering in the tens of thousands, that 
is responsive in varying degrees to Iranian control. But 
nonetheless, they hold everything from explosively formed 
penetrators, which killed a lot of people in Iraq in the 2007-
2010 period, to large rockets and precise missiles that they 
can employ.
    The Iranian desire, I believe, would be to try to do that 
in a manner that is not completely attributable to Iran. They 
may be wrong in making that guess because we are pretty 
confident we can determine attribution. But, you know, what we 
have seen are a number of attacks at the U.S. Embassy, some as 
recent as just, what, less than 2 weeks ago. Rockets fell very 
close. Rockets have fallen inside the embassy compound.
    We have a variety of things that we do to protect 
ourselves, and we have been good so far in doing that. That 
luck is not going to hold out forever. And at some point, the 
degree of Iranian command and control over those Shia militia 
groups may be tested.
    I have always said that Iran can certainly direct attacks 
in Iraq. Iran may not be able to prevent attacks from occurring 
in Iraq. And frankly, you know, the fact that Qasem Soleimani 
is no longer there to tie it all together makes it a little 
more difficult for them to affect command and control, even 
though I think the threat is less with his death.
    Mrs. Trahan. Sure. Thank you. So as we draw down troops in 
Afghanistan, I am wondering, are we expanding our military 
footprint in the region? Are we reshuffling troops? I ask 
because I am concerned with force protection, but I would also 
like visibility into what our troop presence is going to look 
like or as you project it through the year.
    General McKenzie. Certainly. So we are on a glide slope to 
draw down to 8,600 in Afghanistan. We will reach that goal by 
the middle of the summer. We will have, in my judgment, 
adequate force protection for those forces that remain there.
    On the other end of the theater, in Iraq, you know, we have 
got around 5,000 U.S. forces there. We have got a number in 
Syria, and I will be happy to talk about that in the closed 
session just a little bit later. But we believe that in 
general, we have adequate force protection measures there. We 
are also in the process of bringing air defense systems, 
ballistic missile defense systems into Iraq in particular to 
protect ourselves against another potential Iranian attack. So 
we will look at those. I balance those two active theaters all 
the time.
    Now, there are other forces, obviously, in the theater as 
well. Over the last few months, as you know, we brought forces 
into the Kingdom of Saudi Arabia, both to assure them and to 
add operational depth to our force presentation against Iran in 
order to deter them. Our buildup at Prince Sultan Air Base, or 
PSAB, is indicative of that. The beauty of that base is it is 
out of short-range ballistic missile range of Iran but yet is 
close enough for our various types of fighter attack aircraft 
to operate out of there. It is well defended and provides 
significant additional depth in the theater.
    We talked a little bit earlier about naval presence in the 
theater. Naval presence is always the most effective and 
flexible form of presence because you can dial it up and down, 
and you don't have to worry, again, as I have noted earlier, 
about access basing and overflight as you bring those in. So we 
constantly balance forces in the theater.
    And I would just close by saying, I was the director of the 
Joint Staff when the NDS was written. I am very much aware of 
the larger priority we need to place against the China threat, 
the Russia threat, and other threats. So I know the cost that 
we ask when we bring forces into the CENTCOM AOR.
    Mrs. Trahan. Thank you. I appreciate that. In my remaining 
time, and I know I don't have much, but I am wondering if the 
Secretary could just comment on the diplomatic efforts that are 
riding alongside our military presence.
    Ms. Wheelbarger. With respect to Iran specifically?
    Mrs. Trahan. Yes.
    Ms. Wheelbarger. Our major policy continues to be an 
economic and diplomatic pressure campaign. None of us see that 
decreasing anytime soon, and we think that pressure is going to 
gain over time. Economically we do think, you know, that Iran 
economy faces a lot of challenges. They are resilient, but we 
think that over time, the goal is to bring them back to the 
negotiating table for a more comprehensive deal.
    The Chairman. Thank you.
    Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman. Thank you for being 
here today.
    Americans want to see a positive, peaceful outcome in 
Afghanistan, especially after 18\1/2\ years of war, but we also 
can't afford to have Afghanistan return to a pre-9/11 
capability where the Taliban are providing safe haven for al-
Qaida. I think today we have a minimal presence there at a cost 
that is much less than what we have had in years past. However, 
if we withdraw, and the Taliban find themselves dominant in 
Kabul to provide safe haven again, I think it will be a much 
higher cost later. So those are some of my concerns.
    So my question to General McKenzie is what evidence do you 
have that the Taliban have severed their close ties or alliance 
with al-Qaida?
    General McKenzie. So we think in terms of two groups that 
threaten the United States. We are confident of the Taliban's 
picture on ISIS-K, as an example.
    Mr. Bacon. Right.
    General McKenzie. We have talked a little bit about that. I 
am less optimistic about al-Qaida. That is something they are 
going to have to demonstrate. That has not yet been 
demonstrated. The--not the beauty of it but the fact of it is 
as we go forward, we are going to have ample time to see if 
they actually do that, and that will be before we become 
irrevocably committed to a force presence that would not allow 
us to have adequate leverage in Afghanistan. We don't need to 
trust them. We don't need to like them. We don't need to 
believe anything they say. We need to observe what they do, and 
we have the capability to do that.
    Mr. Bacon. That would be the chief concern is that alliance 
with al-Qaida. Let's say in 2\1/2\ years, the Taliban are 
largely in control of Kabul and they are providing safe haven 
to al-Qaida. What is our options at that point? How do we 
respond? I think the cost would be much higher than what we 
have, what we are putting in now. Just curious for your--I know 
it is a hypothetical, but I am just curious for your response. 
Where do we come in from and how do we hold them in check?
    General McKenzie. Sir, and so without getting into a 
hypothetical, I would tell you that we know how we got in in 
2001, so we have an object lesson on how to enter Afghanistan. 
It is difficult. It is painful. It is very expensive to do 
that, but we did it.
    Having said that, again, I come back to we talk about this 
a lot. I think we are going to have a lot of opportunity to see 
the way this goes forward and the dynamic between the Taliban 
and the Government of Afghanistan. And I am just not prepared 
to assume that the Taliban have good intentions, no, but I am 
also not prepared to assume that the Government of Afghanistan 
is defenseless and unable to assert themselves and come to a 
workable agreement with the Taliban. We don't know the answer 
to that question. We are going to have good opportunity to 
observe and get the answers to those questions.
    Mr. Bacon. I would say the strength of this is it is 
delayed, an agreement where we can watch and monitor and turn 
up the thermostat or lower the thermostat based on Taliban 
response. So I do appreciate that.
    Ms. Wheelbarger, I want to ask your thoughts on missile 
defense coordination and integration. As we know, Iran has 
approximately 1,000 ballistic missiles, and a lot of the 
countries in the region need to have some capability to 
respond. How are we doing it, helping them integrate a 
capability so it is not every man or woman for themself?
    Ms. Wheelbarger. Right. One of our key priorities at the 
moment is helping Saudi Arabia in particular be more capable 
and integrated with their own missile defense assets. They do 
have significant numbers of them, but I do think over the last 
few decades, we have been trying to get them to improve their 
integration to advance their capability.
    With respect to integration within the region writ large, 
that I would say is aspirational at best. I mean, you can see 
these countries eventually improving their defenses by working 
together, but we have many interagency efforts to try to get 
our Gulf partners in particular to work more cohesively across 
the numerous lines of effort, and it is a long-term project. I 
will just put it that way. But the key--and I defer to General 
McKenzie as well to talk about what the military has been able 
to achieve in advancing particularly Saudi Arabia's 
capabilities.
    Mr. Bacon. When we look at Iranian capabilities, this is 
probably their primary capability to hold us at threat and our 
allies.
    General McKenzie. Sir, it is, and I would say Iran actually 
has about 2,500 to 3,000 ballistic missiles.
    Mr. Bacon. Okay. Thanks for the update.
    General McKenzie. But the point that Ms. Wheelbarger made 
is integrated air defense, the ability to sit--for example, if 
I go and look at a console at one of my ballistic missile 
defense sites in UAE [United Arab Emirates], or I go up into 
another location far west of the theater, we are going to see 
the whole theater in a common operational picture. That is the 
strength of the United States approach to war and with our NATO 
[North Atlantic Treaty Organization] and coalition partners. We 
would like to have that capability replicated in the Gulf. We 
are working hard to that end. We begin with small steps. It has 
taken us a long time.
    When I was the J5 at U.S. Central Command in 2011, we said 
the same thing. So I am very much aware this is something we 
have not been very good at. However, the fact that there is a 
clear, obvious, evident threat tends to focus people, and I 
think in particular, the Kingdom of Saudi Arabia is now focused 
on this.
    Mr. Bacon. And I had a question for General Townsend, but 
this will be the close of the comments because I am running out 
of time. I just want to commend you for starting Task Force 
Somalia. Especially after Manda Bay, I think it is needed. So I 
just applaud the effort of your command for doing that. Thank 
you.
    I yield back.
    The Chairman. Thank you.
    Ms. Slotkin.
    Ms. Slotkin. Hi, everyone. Hello. General McKenzie, can you 
just answer for me, is the U.S. engaged in hostilities against 
Iran or Iranian forces?
    General McKenzie. No, we are not.
    Ms. Slotkin. Do you believe, as CENTCOM commander, that you 
have authorization for military force against Iran?
    General McKenzie. No, I do not.
    Ms. Slotkin. Does the 2001, or 2002, authorization of 
military force give you authority to get into hostilities with 
Iran?
    General McKenzie. With the caveat that you always have the 
authority to defend yourselves.
    Ms. Slotkin. Of course, self-defense, but from the 
authorization.
    General McKenzie. No. No, it does not.
    Ms. Slotkin. According to the IAEA [International Atomic 
Energy Agency] quarterly report that just came out on March 
2nd, Tehran now has enough enriched uranium to produce a 
nuclear weapon. They reported 220 pounds of enriched uranium, 
which is three times what they reported in November 2019.
    Today, in addition to more uranium, we have more spinning 
centrifuges. The U.N. [United Nations] has been kicked out of 
many facilities. In addition, as you noted, Iranian proxies 
have become more active. We have had--as you say, we crossed a 
critical--I forget your term--a critical threshold with the 
attacks, the ballistic missile attacks on the al-Asad Air Base, 
which is personally sensitive to me, since my son-in-law's unit 
is on that base. Are we more or less safe as a country from 
Iran, and are our allies more or less safe than a year ago?
    General McKenzie. So, I think I would go from the period of 
the exchange in early January. I think since then, we have 
established a rough deterrence.
    Ms. Slotkin. Just from a year ago, though. I mean, I 
respect your best military advice. In terms of a force 
protection matter, our allies in the region, ourselves, our 
partners, when you look at Iran in totality, particularly the 
nuclear file, which we know is the existential threat, are we 
more or less safe? Are your forces more or less safe in 
theater?
    General McKenzie. So I would say we are more safe in 
theater now, because last spring, there weren't many forces in 
theater. And the fact that the force density was so low was a 
major part of the Iranian calculus to act out in the kinetic 
sphere.
    I think that by the posture we have established in the 
theater, really beginning since May of last year, they are far 
more constrained than they were a year before then. So yes, I 
believe we are safer.
    Ms. Slotkin. From the nuclear threat, are our allies and 
partners more or less safe from a year ago?
    General McKenzie. I would defer to Ms. Wheelbarger on the 
nuclear threat.
    Ms. Slotkin. I will take that. I want to ask a couple of 
questions on Iraq and Syria. We did lose two Marine special 
operators. My understanding is it took 6 hours to get to these 
guys. Can you help me understand, since I know many of us are 
concerned about the golden hour and making sure we get to 
forces. What happened? Do we have enough on the ground to 
actually protect the forces we have?
    General McKenzie. Sure. The terrain was vertical. It is 
some of the worst terrain in the world. I monitored it hour by 
hour, along with General Pat White. There is no way to do it 
any faster than we did it. It is a very tough, difficult 
tactical situation. The problems we encountered were not 
problems of resources.
    Sometimes you fight on hard ground. Sometimes someone falls 
a long way and has to be recovered. What you don't want to do 
is get somebody else killed in that recovery, or put yourself 
in a situation where you are going to put more lives at risk. I 
am completely confident the commanders on the ground did 
everything they could to get these two folks out as quickly as 
possible.
    Ms. Slotkin. So should we expect additional--I mean, 
hopefully not--but killed in action because of the terrain?
    General McKenzie. So there are different kinds of terrain 
in Iraq. As you know, this is northeastern Iraq. Terrain is 
particularly bad up there. That is partially why ISIS is up 
there.
    We will continue to operate there. Any time something like 
this happens, we take a look at our tactics, techniques, and 
procedures to make sure we are going at it at the most 
effective way. But, as you know, combat is a clash of human 
wills, and sometimes the bad guys are going to have a good day.
    Ms. Slotkin. Can you tell me, there are reports in Syria of 
drones dropping mortars and grenades on our troops near or 
around oilfields. Can you help me understand what is happening 
there, and do we have adequate force protection?
    General McKenzie. Sure. So we have reports--I don't think 
as many as are in the NPR [National Public Radio] report, but 
yes, people work Group 1 UASs, which are the small UASs. They 
will try to find a way to carry an explosive and fly over 
either not necessarily us alone, but the Russians have had some 
significant casualties in this regard, as have other nations 
that are operating there.
    So yes, it is a problem. We look at it very hard. It is one 
of my highest priorities.
    Ms. Slotkin. Who is operating those drones?
    General McKenzie. So, I think probably, in this case, ISIS, 
but we are still working that. But if I had to judge today, I 
would say it was possibly ISIS, but probably not a state entity 
operating the drones.
    Ms. Slotkin. Okay. I yield back. Thank you.
    The Chairman. Mr. Gallagher.
    Mr. Gallagher. Just a quick follow-up. Are those commercial 
off-the-shelf DJI drones that they weaponize?
    General McKenzie. That would be my guess. As you know, they 
are universally available.
    Mr. Gallagher. Another follow-up to Ms. Slotkin's 
questions. I think we are getting ready later this week to vote 
on H.J. Res. [House Joint Resolution] 68, which directs the 
President to terminate the use of Armed Forces, use of Armed 
Forces for hostilities against Iran, but you have just said we 
are not engaged in hostilities against Iran.
    So one could say this legislation is unnecessary, but, in 
your professional military judgment, what do you assess would 
be the impact of this legislation, particularly when it comes 
to our deterrent posture with respect to Iran?
    General McKenzie. So, sir, I have to confess, I am not 
familiar with the--I know the legislation exists. I have not 
done a detailed study of it. I know that our ability to deter 
Iran effectively comes from two things: our capability and our 
will. And so, the ability to demonstrate those two things are 
what provides a cognitive effect in the mind of the person you 
want to deter that, no, you don't actually want to do something 
now.
    Mr. Gallagher. I will ask the same question to Ms. 
Wheelbarger.
    Ms. Wheelbarger. I think I would follow up similarly, that 
a signal to any potential adversary that we don't have support 
of Congress to defend ourselves, if necessary, would send a 
signal that would not be helpful to deterrence.
    Mr. Gallagher. And just to reiterate, we are not engaged in 
hostilities with Iran, though we retain, as always, inherently, 
under Article II, the right to defend ourselves if attacked?
    Ms. Wheelbarger. Yes.
    Mr. Gallagher. Similarly, are you aware of anything you are 
doing today exclusively because of the 2002 AUMF [Authorization 
for Use of Military Force]? Not the 2001, the 2002 AUMF. Are 
you aware of anything you are doing that relies on the 2002 
AUMF?
    Ms. Wheelbarger. As you know, that 2002 AUMF provides 
budgeting authority for what we are doing in Syria, because the 
threat of ISIS emanating from Syria has been a supplemental 
justification for our military activity there. Our coalition 
forces, for example, rely on the defense of Iraq for their 
justification. So it is a mutual sign that we see the threat 
from ISIS from Iraq.
    I will say, that I think the notification you all received 
on the Soleimani strike did include an additional 2002 AUMF 
justification for domestic legal basis.
    Mr. Gallagher. At the time, we got vague assessments about, 
perhaps, some detentions we have related to the 2002 AUMF. For 
the record, I disagree with that. I am with you on opposing an 
attempt to undermine our deterrent posture with Iran, and I 
think that legislation was unnecessary. I think it is far past 
time for us to repeal the 2002 AUMF. I think it is doing no 
work at all, and it would be a good matter of congressional 
hygiene when it comes to war powers, but that is a debate for 
another day.
    Quickly, I know we have had a lot of discussion about 
Afghanistan. General McKenzie, in the PB-21 [President's budget 
2021] budget request, it looks like the request for Operation 
Freedom's Sentinel is $14 billion, while the request for 
enduring OCO [overseas contingency operations] requirements is 
$28 billion.
    So, to clarify, if all U.S. service members left 
Afghanistan, would that $14 billion go down to zero while that 
$28 billion would stay roughly the same as other forces 
stationed within the CENTCOM AOR would continue to conduct CT 
operations?
    General McKenzie. Sir, I will have to come back to you on 
the details of that. I can tell you, it is my understanding 
that that budget does reflect a proposed force level of 8,600 
in OFS [Operation Freedom's Sentinel] going forward from, like, 
July of this next year. But I will have to take that one for 
the record and come back with you with the detailed question 
that you just asked.
    [The information referred to can be found in the Appendix 
on page 101.]
    Mr. Gallagher. And then for those who are concerned about 
the rapidity of our withdrawal from Afghanistan, I guess to put 
it, what vital interests are at stake, if any, in Afghanistan, 
and what is the geopolitical importance of Afghanistan?
    General McKenzie. So the vital national interest that 
threatens us from Afghanistan is the ability of al-Qaida and 
ISIS-K to generate attacks against the homeland of the United 
States, and against the homelands of our allies and partners. 
So we have seen that happen. We know that is not something that 
we are talking about as a conditional future possibility. We 
know that it has happened in the past.
    The best intelligence estimates tell us that if we do not 
maintain pressure on those two entities, that in a period of 
time--and you can say a year, you could say 2 years, you could 
say somewhere in between--they are going to generate the 
ability to do external attacks again. And that will manifest 
itself here in the United States. That is a vital national 
interest.
    Mr. Gallagher. And then finally, and most broadly, and I 
only have 25 seconds, I know no theater commander is ever going 
to argue for less attention and resources, but do you 
understand the basic premise of the NDS, which is that, because 
China is the pacing threat, INDOPACOM [U.S. Indo-Pacific 
Command] is the priority theater, not CENTCOM?
    General McKenzie. I was the Joint Staff J5, Director of 
Strategic Plans and Policy, and the Director of the Joint Staff 
during the creation of that document. I was present at the 
creation. I am intimately familiar with it.
    Mr. Gallagher. A great title for a memoir.
    General McKenzie. It is.
    Mrs. Davis [presiding]. Ms. Torres Small.
    Ms. Torres Small. Thank you, Ms. Chair, thank you, Ranking 
Member, and thank you all so much for your service.
    General McKenzie, I really appreciated your comments during 
your opening statement about how important it is that we be 
adaptable to future Iranian threats. And DOD has spent billions 
of dollars on kinetic and nonkinetic counterdrone systems to 
that effect. These systems are often tested at White Sands 
Missile Range, which is in the district that I represent. 
However, they have yet to be fielded widely.
    And I remain concerned that our operators are under 
significant threat from especially small drones and enemy drone 
swarms, especially from Iran and its allies and proxies.
    Is it accurate that your command is experimenting with new 
and more effective counterdrone capabilities that utilize 
artificial intelligence and autonomous systems?
    General McKenzie. We aggressively pursue anything that will 
improve the capabilities, particularly against those Group 1 
and 2 UASs, as you mentioned. That is one of the things that 
worries me the most in the theater every day, is the 
vulnerability of our forces to those small UASs.
    Ms. Torres Small. And specifically to the question about AI 
[artificial intelligence] and autonomous systems.
    General McKenzie. So I am aware of some experimentation on 
that. I will have to come back to you on more details on that.
    Ms. Torres Small. Okay. I will take that for the record.
    [The information referred to can be found in the Appendix 
on page 101.]
    General McKenzie. I will tell you that we have a very broad 
set of joint requirements to drive that, so it is possible 
there is something there.
    Ms. Torres Small. We will take that for the record.
    General McKenzie. Certainly.
    Ms. Torres Small. It is my understanding there has been 
specific testing with WSMR [White Sands Missile Range]. I would 
love to look into that further. And I will submit this question 
to the record as well, but can you please provide us a plan for 
fiscal year 2021 that would enable us to accelerate the efforts 
that you are taking?
    General McKenzie. Absolutely, I would be delighted to do 
that.
    [The information referred to can be found in the Appendix 
on page 101.]
    Ms. Torres Small. Fantastic. And are your command's needs 
for effective counterdrone systems being met currently?
    General McKenzie. I am convinced the system is generating 
as much as it can. The Secretary and I have talked about this. 
I own a lot of the systems that are available across the entire 
United States inventory. I am not satisfied with where we are, 
and I believe we are at great risk because of this.
    Ms. Torres Small. Fantastic. So you are also exploring 
options that we do not currently own, correct?
    General McKenzie. That is correct. We are open to anything. 
And a lot of smart people are looking at this. We are not there 
yet, but I think the Army having executive agency for this will 
actually help in a lot of ways. It will provide a focus to 
these efforts. This is a significant threat.
    Ms. Torres Small. Thank you so much.
    Switching over to Africa briefly, it is estimated that over 
the next decade, 7 out of 10 of the world's fastest growing 
economies will be in Africa. Against the backdrop of tremendous 
opportunity on the continent, China has ramped up its 
engagement--and this was distributed to all of us, I think it 
is a pretty clear example of China's ramped-up engagement--not 
only surpassing the United States as Africa's largest trading 
partner, but also expanding its military presence through an 
overseas base in Djibouti and increased arms sales. And what is 
interesting is this also shows that Djibouti has one of the 
largest debts to China on the continent.
    So, General Townsend, is it accurate that strategic 
investments in development and diplomacy support defense to 
demonstrate that the United States is a better partner for 
developing countries than China?
    General Townsend. Absolutely, they do. At AFRICOM, we work 
every day, hand in hand, with our diplomatic partners and our 
development partners.
    Ms. Torres Small. Thank you so much. And likewise, what are 
the national security costs of ceding ground to our competitors 
like China, especially in continents like Africa?
    General Townsend. Well, as you can see from the diagrams, 
Russia and China are competing really hard on the African 
continent. I don't believe that we have to outcompete them in 
all 53 countries of the AFRICOM AOR, 54 if you include Egypt on 
the continent.
    You don't have to outcompete them everywhere, but we have 
to pick and choose where we need U.S. access and influence in 
the future. And there are probably some places where maybe if 
they have the edge over us, it is okay. It is not critical for 
our national security. So I think that it is very important 
that we look at the continent and decide where we are going to 
prioritize our efforts.
    Ms. Torres Small. Where do you think we are not investing 
now that we really should be?
    General Townsend. I think in global or great power 
competition.
    Ms. Torres Small. Within Africa?
    General Townsend. Yes. I think we are appropriately focused 
right now, and the whole point of this blank slate, or a COCOM 
review, that the Secretary is running with the entire 
Department is to focus all of our efforts more at global power 
competition than we have been in the past. So I think we have 
got the right focus.
    Ms. Torres Small. I can take that for the record if you 
want to supplement any specific locations.
    General Townsend. Sure.
    [The information referred to can be found in the Appendix 
on page 101.]
    Ms. Torres Small. Thank you. I yield the remainder of my 
time.
    Mrs. Davis. Thank you.
    Mr. Byrne.
    Mr. Byrne. Let me follow up on that last line of questions, 
General. You said we need to prioritize. What would you say the 
priorities are?
    General Townsend. Well, the Secretary of Defense has given 
me clear guidance. The first is to maintain our U.S. ability to 
implement our war plans in the world. The second is to compete 
with China and Russia. Third is to focus on the violent 
extremists, the violent extremist groups that threaten U.S. 
interests and U.S. homeland. And fourth is to be prepared to 
respond to crises on the African continent.
    So those are my priorities from the Secretary of Defense. 
They are clear, and we are working through how we adequately 
ensure those are adequately resourced.
    Mr. Byrne. Maybe I misunderstood what your answer was 
before. I thought you were talking about priorities with regard 
just to trying to measure up in the competition with Russia and 
China. Are there priorities that you have within that?
    General Townsend. There are, and they basically revolve 
around ensuring we have access and influence in selected parts 
of the continent. And I would prefer to take the rest of that 
into classified session.
    Mr. Byrne. Fair enough. Let me just follow up one more. If 
you need to save this for classified as well, that is fine. Do 
you feel like you have the resources that you need to meet 
those priorities?
    General Townsend. Today, I think AFRICOM is adequately 
resourced to do what we have been told to do.
    Mr. Byrne. Let me ask you about--and maybe you are not the 
right person to ask. Let me just ask it anyway. Where are we on 
Libya right now?
    General Townsend. I will defer to my colleague from the 
Department of Defense.
    Ms. Wheelbarger. If I could just respond to your previous 
line of questioning real quickly, I just want to highlight that 
our overall competition with Russia and China on the continent 
is a whole-of-government effort more than just the military 
tool. We are looking, and we have Prosper Africa, which is a 
White House-driven effort to increase economic activity from 
our private sector in Africa, find ways for the African 
economies to adjust better to, sort of, private sector entities 
in the Western model and less just the sort of predatory 
funding that the Chinese provide, as well as supplemented by 
diplomacy and development aid. So, we do have a very strong 
whole-of-government effort that prioritizes more than just the 
military component.
    I lost your second question. I am sorry.
    Mr. Byrne. Libya.
    Ms. Wheelbarger. Libya, yes. We are very concerned with 
events in Libya. Obviously, it is a location of numerous other 
powers competing with each other. You see Russia. You see 
Egypt. You see Turkey. Our overarching strategy is to continue 
to be able to address the terrorism threat that we see there, 
and I think we can effectively address that, while bringing the 
diplomacy to bear to bring both sides of, basically, the civil 
war together, recognizing that the military tool in Libya needs 
to be part of a functional government, and not actually running 
that government. So we continue to work with, sort of, both 
competing factions, and also try to call on other powers to not 
continue to destabilize and ignore arms embargoes that are in 
place.
    Mr. Byrne. Have things gotten worse or better in the last 
year in Libya?
    Ms. Wheelbarger. I would assess they have gotten worse.
    Mr. Byrne. What are we doing about that?
    Ms. Wheelbarger. Well, we are, again, number one priority 
for us is the counterterrorism effort. Number two with respect 
to the ongoing strife, it is a diplomatic-led effort from our 
State Department colleagues, trying to work with our European 
partners as well to bring the conflict to an end, given, as I 
think General Townsend said earlier, the threat emanating from 
Northern Africa is most acutely a European challenge.
    But we are very cognizant, especially from the Department 
of Defense's perspective of what we see as sort of Russian 
encirclement in the eastern Med [Mediterranean Sea], and it is 
something that is complicating and a challenge.
    Mr. Byrne. With a minute and 10 seconds left, can you tell 
me where we are in Yemen?
    Ms. Wheelbarger. Yemen. Yes. Once again, the U.S. is trying 
to support our diplomatic colleagues at the State Department 
and the U.N., led by Martin Griffiths, in his efforts to bring 
those competing forces together. We have seen some successes in 
the Sweden agreement between the two sides, and some efforts to 
have, I wouldn't call it a ceasefire, but minimizing violence. 
The Houthis, like the Taliban, are not easily trusted, but we 
do see that there is renewed interest, I think, from the Saudi-
led coalition to find an end to the conflict, that we continue 
to believe there is no military solution to it, it has to be a 
diplomatic/political solution.
    And I will just also add, we continue to support our Saudi 
and UAE partners and how they need to defend themselves against 
the UAV [unmanned aerial vehicle] and ballistic missile 
challenges coming out of Yemen.
    Mr. Byrne. Thank you. I yield back.
    Mrs. Davis. Thank you.
    Mr. Crow.
    Mr. Crow. Thank you, Chairwoman.
    Thank you to all of you for your testimony and continued 
service.
    I would like to start by clarifying a timeline issue that I 
have been struggling with a little bit. The administration 
directed General Miller to conduct an assessment of troop 
withdrawal in Afghanistan last year. Is that correct?
    General McKenzie. [No verbal response.]
    Mr. Crow. And based on that assessment, he came up with an 
8,600 number, is that correct? I am sorry, I can't hear you.
    General McKenzie. That is correct. That is correct.
    Mr. Crow. General Miller told a group of us when we were in 
Afghanistan in October, and then again during testimony in 
December, that that 8,600 drawdown was going to occur 
regardless of whether or not there was an agreement with the 
Taliban. Is that your understanding as well?
    General McKenzie. No, that is not my understanding. Our 
understanding is this was driven--this was a branch plan that 
we held. We could adopt it if directed to do so, but we didn't 
have clear guidance to do it until recently.
    So we were not planning to do this until we received 
Presidential direction. That may seem like a very fine point, 
but it is actually a big deal. We have plans for a lot of 
things. We had a plan to go to 8,600.
    Mr. Crow. It is a big deal. So you are saying that the 
8,600 drawdown was only going to occur if there was a peace 
agreement with the Taliban. Is that what you are saying?
    General McKenzie. What I am saying from the military side, 
we were going to go to 8,600 when directed to do so by national 
leadership of the United States. I defer the rest of that, 
actually, to Ms. Wheelbarger here.
    Ms. Wheelbarger. I will just add, I do think, based on 
General Miller's advice, we were prepared and planned to go to 
8,600. And the Secretary was prepared to adjust the force 
posture, in the absence of an agreement, if that was in our 
national security interest, but no decision had been made to do 
so.
    Mr. Crow. Independent of an agreement with the Taliban?
    Ms. Wheelbarger. Yes. He was prepared to do that if it 
looked like it was necessary, or appropriate for us, given our 
desire to instill readiness in the force, and being able to 
achieve the mission.
    Mr. Crow. As of October of 2019, was it your understanding 
that that drawdown was to occur?
    Ms. Wheelbarger. No.
    Mr. Crow. Okay. How about December of 2019?
    General McKenzie. It was a contingency, but it was--we 
didn't have a date to start it and no intent to execute it 
until directed. We had no direction to do so.
    Mr. Crow. Well, then the folks in this committee are 
getting contradictory information, and I would recommend that 
you clear it up within the Department of Defense.
    Secondly, I had the opportunity to review the entire 
agreement, including the annexes. Two thousand four hundred 
Americans have given their lives in Afghanistan. Over 20,000 
have been wounded. This is America's war, not any one 
administration's war.
    Are there plans within the administration to release the 
entire agreement so the American public can see under what 
terms we are going to be withdrawing from Afghanistan?
    Ms. Wheelbarger. My understanding is the two side 
agreements, or annexes, are not public for operational 
requirements, and I would defer to my colleagues on why that is 
the case, and that they are not intended to be secret from the 
committees, but continue to be not public to the public.
    General McKenzie. I would echo that.
    Mr. Crow. I have read the entire agreement, and I see no 
reason why they could not be released. And I just want to be 
very clear that I believe, as do many people on this committee, 
that the American public deserve to know under what terms we 
are withdrawing from Afghanistan.
    Lastly, in October, when a group of us was in Afghanistan, 
it was very clear to us by everybody that we talked to that the 
Afghan National Defense and Security Forces was incapable of 
standing up on its own any time in the next couple of years, 
yet under the plan, we will completely withdraw, including 
support services and contractors, within 14 months. If that 
occurs, will the Afghan National Defense and Security Forces be 
capable of standing up on its own?
    General McKenzie. That is going to be another discovery-
based process as we go forward. So we are going to go to 8,600 
by the summer. Conditions on the ground will dictate if we go 
below that. If conditions on the ground are not permissive, my 
advice would be not to continue that reduction. That would not 
be my decision, that would be my advice.
    So that will be based on performance of the Afghan 
military, their ability to incorporate the Taliban if the 
Taliban is going to be incorporated at all. I will have an 
opportunity to give advice on this. I had an opportunity to 
give advice on the decisions that have just been made. So these 
are not things that will happen in and of themselves.
    Mr. Crow. So if 14 months from now, the Afghan National 
Defense and Security Forces are not capable of standing up on 
their own and defending Afghanistan and the government, it will 
be your advice not to withdraw those support services?
    General McKenzie. Absolutely, that would be my advice, but 
that is a future contingency and there are a lot of--it is far 
more complex than just that. But, yes, and I will have an 
opportunity to give that advice.
    Mr. Crow. And what are we doing--pivoting to Iraq very 
briefly, what are we doing now to protect the Syrian Kurds, 
stateless persons, and Syrian nationals who fought with us and 
make sure that them and their families are secure against 
attacks in the region?
    General McKenzie. Sir, as you know, the area that we 
control in Syria with our Kurdish partners is generally what we 
call the eastern Syria security area. We have trained and 
continue to train significant internal security forces to 
maintain local security. We can be answerable for that through 
our SDF [Syrian Democratic Forces] partners and through our 
other partners there. I am confident that we have measures in 
place to protect them now. I am obviously less confident if you 
go into western Syria, because we don't have the ability to 
reach out to there.
    Mr. Crow. Thank you. I yield back.
    Mrs. Davis. Thank you.
    Mr. Brooks.
    Mr. Brooks. Thank you. I have got four quick points before 
I get to my questions. Point number one, General McKenzie, in 
your written testimony, you state that, quote, ``All wars have 
a political end,'' end quote. I think that is very insightful.
    Number two, the United States has been in Afghanistan the 
time equivalent of a little bit more than five World War IIs, 
five World War IIs. That is a remarkable statistic.
    Number three, in my judgment, our military has performed 
superbly, and we won in Afghanistan. We effectively destroyed 
al-Qaida's operational capability in the early years of the 
war, we toppled the Taliban government, and we killed Osama bin 
Laden.
    Number four, I am skeptical that the Afghan people 
adequately appreciate America's sacrifice of American lives and 
treasury on their behalf. Perhaps you have a different view on 
that, but that is my view is, I don't think that we are 
properly appreciated for the sacrifices that we have engaged in 
in Afghanistan.
    With that kind of as a backdrop, the question: The text of 
the Afghan Peace Agreement appears to commit the United States 
to withdrawing its forces within 14 months, subject to 
conditions on the ground.
    General McKenzie, why was 14 months chosen?
    General McKenzie. I would defer to the negotiator to arrive 
at that, to arrive at that point. I cannot answer the question 
why 14 versus 13 versus 22 months. I do not know the answer to 
that question, sir.
    Mr. Brooks. Does 14 months allow America to withdraw its 
forces and equipment from Afghanistan safely?
    General McKenzie. It does if conditions are applied to that 
withdrawal, and we hold to the conditions.
    Mr. Brooks. What is the least amount of time needed to 
safely withdraw American forces and equipment from Afghanistan?
    General McKenzie. I prefer to talk about that in a closed 
session, and I would be happy to do that.
    Mr. Brooks. Ms. Wheelbarger, the same three questions. 
First, why was 14 months chosen?
    Ms. Wheelbarger. Unfortunately, I do have to defer to the 
State Department negotiators as well. I don't have insight.
    Mr. Brooks. Do you have a judgment as to whether that 14 
months allows America adequate time to safely withdraw our 
forces and equipment?
    Ms. Wheelbarger. I would trust my military colleagues to do 
all they can to ensure any removal or retrograde of our troops 
is done with force protection being their number one priority.
    Mr. Brooks. And do you also have no opinion that you are 
willing to express in this setting about the minimum amount of 
time required for us to safely withdraw our troops and our 
equipment, salvageable equipment, from Afghanistan?
    Ms. Wheelbarger. I would assess that 14 months is probably 
enough time to withdraw safely. I just want to second what we 
have said before, which is 14 months is aspirational. Trying to 
set sort of a timeline suggestion that both sides can see their 
objectives potentially being fulfilled and, therefore, giving 
us the conditions that we feel is in our national security 
interest to actually withdraw.
    Again, all of this is going to be based on whether the 
commitments are made and the security situation is such that we 
can continue to defend our own interests.
    Mr. Brooks. General Townsend, moving to Africa, what, in 
your judgment, are the most important flashpoints, or critical 
areas, in Africa at this time that we should focus our primary 
efforts on?
    General Townsend. First, I would say Somalia and 
specifically southern Somalia in the Kenya border region in 
southern part of Somalia. Secondly, I would say in West Africa, 
in the Sahel region, in the tri-border region that is formed by 
Mali, Niger, and Burkina Faso, and where that descends down to 
the littoral states.
    Mr. Brooks. Back to General McKenzie, if the Afghan talks 
do not begin as scheduled, will the United States delay its 
troop withdrawal and, if so, for how long? And perhaps Ms. 
Wheelbarger would be better to answer that, but I will defer to 
each of you.
    General McKenzie. Sir, I would defer to her. But I would 
also point out to you that that withdrawal has begun.
    Mr. Brooks. About 3,000 troops, more or less?
    General McKenzie. It is a small number. It is not linear. 
It will go--you know, it won't be a certain number every week 
as units come and go, but it has begun.
    Ms. Wheelbarger. Again, in my conversations with the 
Secretary, his comfort level with that withdrawal decision was 
not just based on the agreement, but based on the assessment 
that we can continue to achieve our missions with that force 
posture. If something on the ground changes in light of the 
Taliban not keeping its commitments, not just on the inter-
Afghan agreement but on their use of violence, it is a decision 
he is willing to readdress.
    Mr. Brooks. Well, I pray that we will not be there 
indefinitely. Thank you for your service.
    Mrs. Davis. Thank you.
    Ms. Houlahan.
    Ms. Houlahan. Thank you, and thank you all for being here 
today.
    My question has to do with women and girls, the beginning 
part to my question. The Women, Peace, and Security Act 
reflects the growing body of evidence confirming that the 
inclusion of women in the peace process helps to reduce 
conflict and to advance stability.
    Research shows that higher levels of gender equality are 
associated with lower propensity for conflict. Data from 
countries around the world demonstrate that women's inclusion 
in peacekeeping units, police forces, and in the security 
sector improves accountability and decreases abuse against 
civilians.
    So one of my first questions--and this goes along with Mr. 
Crow's question is: Can you first comment on whether or not 
there was any aspect of the agreement with the Taliban that 
related to women and to girls?
    Ms. Wheelbarger. Based on my conversations with my State 
Department colleagues, the focus on this being an inclusive 
inter-Afghan agreement would include the necessity that women, 
in particular, are part of the peace negotiations, inter-Afghan 
peace negotiations.
    Ms. Houlahan. Gentlemen, do you have any----
    General McKenzie. I would associate my remarks with that. 
The only other point I would say is I particularly agree with 
you, the inclusion of women in policing activities and low-
level tactical activities is extremely helpful. It is difficult 
to achieve in Afghanistan, as you are aware. But our inability 
to better--than we are having--the results we are getting is 
not from a lack of trying. We are trying very hard on that.
    Ms. Houlahan. Sir? I know you can't talk on that area.
    General Townsend. I can't speak to the Taliban issue.
    Ms. Houlahan. So my understanding is, that there is no 
inclusion of women and girls in the agreement, in any of the 
aspects of the agreement. And, so, I find that really 
disappointing, and I don't know who to aim my ire at. And so, I 
just would like to understand that better. And maybe offline, 
if we have the opportunity to talk about that, I would 
appreciate it, because it certainly seems that everybody--and I 
was on the trip with Mr. Crow. Everyone who we were with 
assured us that that was important. You know, we had 
opportunities to meet with a lot of folks about that particular 
issue, and it would be really disappointing if that was the 
case.
    Can you comment, now, on how AFRICOM and CENTCOM have 
engaged women in counterterrorism efforts in your regions? How 
are you working to make sure that we do continue to include 
this important part of our population?
    General Townsend. Sure. So women and peace and security is 
sort of part of our DNA at AFRICOM. I actually have a full-time 
gender adviser on our staff there. This is an issue that is 
embedded in every training event we do on the continent, or in 
Europe, for example. And so, just three quick examples.
    We had a recent communication symposium which I spoke at 
where we brought women in the armed forces from African nations 
to Germany for a symposium. We conducted a female intel officer 
course on the continent, and we just had a fairly large-scale 
exercise called Flintlock. It is a special operations forces 
exercise. It had a women's and peace and security component to 
it. So we worked as hard to impress upon our African partners 
the importance of this.
    Ms. Houlahan. Thank you, sir.
    General McKenzie. So I would echo what General Townsend 
said. You know, we have two tactical areas of operation where 
ability of women to interact at the tactical level is critical 
to obtain cultural entry into locations. So on the U.S. and on 
the coalition side, fully embedded. It is a critical capability 
that we simply cannot do without. And I am referring 
specifically to Afghanistan, Iraq, and parts of Syria as well.
    Outreach to our partners, it is better in some areas than 
others. Afghanistan, there are profound cultural barriers to 
doing it. We work it across the entire theater. It is integral 
to all our training activities, and so, I am a very big 
supporter of it.
    Ms. Houlahan. Thank you. Ms. Wheelbarger.
    Ms. Wheelbarger. Sure. I will just add I myself have 
visited the female commandos that work with Scotty Miller, and 
they are impressive and important. I will also add, from my 
perspective from my position, one of the things I try to put a 
lot of energy to is meeting with parliamentarians, particularly 
female parliamentarians, around the world, because including 
female voices in more than just security structures, but, 
actually, in representational democracy is part of what we 
should be pushing forward. So that is a key point that I strive 
to do.
    Ms. Houlahan. And I couldn't obviously agree with you more. 
And I did have the opportunity when I was over with the CROWDEL 
[Congressman Crow congressional delegation] is what we called 
it to have the opportunity to meet with our side, who is 
leading the charge on women and girls issues.
    I only have 30 seconds left, so I will just ask this 
question for the record. General Votel, your predecessor, 
General McKenzie, stated that cyber will be integrated through 
all operations. However, CENTCOM continues to be challenged by 
constrained resources, including trained cybersecurity 
personnel.
    I was wondering if you could comment on whether or not you 
continue to feel the effects of constrained cyber resources and 
trained personnel, and how you would propose to solve that 
issue. And the same for, you know, both theaters. And I only 
have 4 seconds, so if it is okay, I will just take that for the 
record.
    General McKenzie. We will come back to you on the record.
    [The information referred to can be found in the Appendix 
on page 101.]
    Ms. Houlahan. I yield back.
    Mrs. Davis. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Madam Chair.
    Madam and gentlemen, thank you for being here. One thing I 
do want to mention, I am a little taken aback that we have left 
Sudan on the State Sponsors of Terrorism list along with 
countries like Iran. That country has come a long way since the 
incidents with Darfur. And I am disappointed that the State 
Department put additional conditions on them coming off of that 
list as we look to work by, with, and through countries in that 
region. If we leave them on the State Sponsors of Terrorism, 
they are left with no choice but to move towards China and 
Russia. And so, I hope that any assistance you can give us with 
helping to resolve that you will do.
    As we talk about China, I am extremely concerned, 
especially about the natural resource extraction. And as we met 
with you in peacekeeping mission in Mali, they expressed 
concerns that, effectively, the theft of the natural resources 
of many of the countries would in the end lead to civil war in 
many of those countries, and I hope that we are attempting to 
make sure that the people of those countries get a square deal 
as much as possible.
    General Townsend, thank you for your hospitality as some 
colleagues of mine visited AFRICOM. I have been in that area a 
couple of times. One was with General Furness at Djibouti for 
approximately a week, went to Manda Bay, spent some time in 
Somalia, Mogadishu.
    I am a little taken aback at the lack of assets at that 
base for it to be under the command of somebody. I believe he 
was a two-star at the time. There are just very few assets in 
Djibouti, and I am concerned about the lack of assets available 
to our teams in the region.
    General Townsend, you were very kind in providing resources 
to my colleagues and I to travel to see a couple of your ODA 
[Operational Detachment-Alpha] teams in Africa. We saw one ODA 
operating with the 127 Echo program, one team operating 
without. Could you speak to the members of the committee about 
the differences in the teams that operate with the 127 Echo 
program, and those that operate without it?
    General Townsend. Sure. Congressman, first, you know, you 
asked about--let me kind of double back to something you said a 
moment ago about we hope that we are helping these countries 
get a square deal with the Chinese.
    The Department of State has an initiative where they review 
contracts with these countries. It is a free service. Bring 
your contracts in. We will read the Chinese version, we will 
read the version in your language, and we will tell you where 
the traps are, and if there are differences in the versions. I 
think this has gone a long way to help some of the countries on 
the continent avoid the debt trap diplomacy problem.
    To your question about resources in Africa, you know, I 
have served around the globe, a lot of time in CENTCOM. In 
AFRICOM, our troops and our efforts there are the most thinly 
resourced of any I have ever encountered, or had to contend 
with. That said, we are not in the lead in any place on the 
African continent. We support our international partners, 
African partners, European partners, et cetera, AMISOM [African 
Union Mission in Somalia], U.N., AU [African Union] partners.
    So I think if our troops are frustrated, could they do more 
if they had more? Absolutely, they could, but it is not their 
place to do more. It is their place to support our partners. 
That is our role. And sometimes that is a little hard to get 
our more junior leaders to understand, because they know what 
they can do, especially veterans of other theaters know what 
they could do if they had more resources. So we are 
constrained, but I think it is by deliberate choice.
    Your specific question about 127 Echo and, for example, a 
triple 3, 333-resourced force are significant. The 127 Echo 
essentially has full resourcing, because it is a force that is 
operating with U.S. oversight and control, and the 333 program 
is a partner force. They are just different sections authorized 
by Congress as to what we can provide those forces.
    Mr. Scott. General, I am very short on time. I, again, want 
to thank you, but I do want to mention this, and this is not a 
military mission. It would be more of a State Department 
mission.
    We are bringing men in, predominantly men in that area, and 
we are training them in military tactics, and they have 
effectively, a third-grade education level. And we have them 7 
days a week, 24 hours a day. I do think that it would be 
worthwhile for the United States, with other governments, 
through some type of aid program, to provide educational 
resources for those men while they are there on those bases. 
Otherwise, we are training somebody and then releasing them 
without an education.
    The Chairman [presiding]. Thank you.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Let me just preface by stating the obvious. Africa is a 
large continent, 3\1/2\ times the size of the United States, 54 
nations, very diverse in its challenges and opportunities. So 
as I ask my questions, I don't want anyone to think that I am 
confused that it is, you know, one nation and homogeneous or 
monolithic.
    General Townsend, I think you are right, you know, that our 
soldiers may not be--you know, I am quoting you--not their 
place to do more, but I will say that after meeting with you in 
Stuttgart with Representative Scott when we went to Africa, 
USAID [United States Agency for International Development] said 
they could do more if there were more of you. The State 
Department mission said that they could do more if there were 
more of you. So there is a lot more that could be happening in 
Africa, in terms of development and diplomacy, with a larger 
military presence.
    Let me ask you this question: You know, and I really 
appreciate this place mat that you provided. You provided a 
classified version when we were in Stuttgart. It is scary when 
you look at the trendline of China's presence, both, you know, 
the infrastructure, the business investments, the arms sales. 
African nations don't want to be caught in the middle between 
the United States and China or Russia.
    But my question is, what will the DOD, AFRICOM, do to 
ensure, and ultimately deliver, on the desire to be the 
preferred partner for African nations? And while you are 
answering that, maybe you can, once again, just define great 
power competition with China in Africa.
    General Townsend. Thanks, Congressman. So the first part of 
your question about great power, or global power competition, 
as I like to refer to it. Really, it is all about gaining and 
maintaining influence. That is what that competition is all 
about. So on some future rainy day, we have the access and 
influence that we need. So we are in a struggle with China and 
Russia to gain and maintain that influence.
    What they want from us--we can't compete with China. We are 
not going to build stadiums and railroads and ports and 
palaces, which are all things China builds on the continent. 
But what they do want from us is they want help building their 
capacity, their security forces, and they want our help with 
the counterterrorism problem that they have.
    So even though some people may not necessarily agree with 
this, I believe in Africa, building partner capacity and 
counterterrorism efforts, or counter-VEO [violent extremist 
organization] efforts, are a way we do global or great power 
competition in Africa, because that is what our partners are 
hungry for. They come to us because of our capacity to do that, 
they come to us because of our skill, and they come to us 
because of how we treat them and our values.
    Mr. Brown. Let me interject with another question. Can you 
briefly describe how you are going to deploy the 1st Security 
Force Assistance Brigade that you now have in your AOR?
    General Townsend. Sure. So I can cover this in more detail 
in the classified session, but we have them. They are already--
some of them are already on the continent doing--they have been 
leaning forward since about October, and they moved very 
quickly once we got approval.
    We are going to deploy them in some countries with 
persistent presence. In some of our highest priority countries, 
we will have persistent presence with those partners, and in 
other countries, we will have sort of an episodic or a 
scheduled presence.
    And so, in some places they will take up--they will elevate 
our game, because they can advise and train at a higher level 
than some of our soft forces that are actually training, you 
know, units of action at the small unit level.
    Mr. Brown. Let me see if I can get this one in. I know it 
is an austere environment. And when I was there in August, I 
mean, it takes weeks to get major end items in place, I mean, 
if not months. It takes weeks to get repair parts to the ODA 
teams.
    Now that you are bringing in the SFAB [Security Force 
Assistance Brigade], I mean, what infrastructure needs, what 
are the unmet infrastructure needs or logistical support needs 
on the continent?
    General Townsend. I don't think that the SFAB has any 
additional requirements that other elements of DOD have on the 
ground. Theirs are basically the same. We will make sure they 
have the right support, the right security. Wherever we send 
them in Africa, they will be properly supported.
    I think they are going to probably--if any of them are 
veterans of Afghanistan or Iraq, they are going to be shocked 
when they first arrive by the level of resourcing I was 
referring to earlier, how thinly resourced Africa is. It is 
going to be--it is very austere, very expeditionary, as you 
have seen with your own eyes.
    Mr. Brown. I yield back, Mr. Chairman.
    The Chairman. Thank you. I just want to emphasize a point 
that General Townsend made, Mr. Brown elicited, is, what is the 
value add that we have to build relationships in Africa? China 
is throwing all kinds of money around. But it really is, during 
my trip to Tunisia, actually, this is a huge point. I mean, 
they want us and need us as the most reliable partner on 
security. That is something that Russia and China really can't 
offer. They don't have the sustainable equipment. They don't 
have the training. It is a skill set that we bring that helps 
us build that relationship. Obviously, there are other things 
that we do with diplomacy and USAID and all of that, but that 
security relationship is a way to build partnerships in Africa 
without a question.
    Mr. Rogers.
    Mr. Rogers. First, let me thank all of you for your service 
to our country and for making yourself available today.
    General McKenzie, in your unfunded priorities list, you 
address a need for more drones and surveillance to increase 
your ISR [intelligence, surveillance, and reconnaissance] 
capability for base resilience and defense. Is that something, 
are you trying to fill a gap or you just don't have enough ISR 
capability at present?
    General McKenzie. Sir, every combatant commander wants more 
ISR capability. Their current plans to reduce the number of 
particularly MQ-9 drones that are available, we would like to 
see if there is a way that we can keep those in the theater and 
continue to use them.
    I recognize that there is a pressing requirement for those 
drones worldwide, and there are other places that they can be 
used. Nonetheless, we believe we have a genuine requirement for 
them, both in the VEO fight, as well as positioned against 
Iran, even though the MQ-9 is a vulnerable platform against 
some Iranian capabilities. Nonetheless, particularly in places 
like the Strait of Hormuz and other areas, it gives us 
visibility and intelligence-gathering capabilities that we 
might not otherwise have.
    Mr. Rogers. Was this a request that you put in your base 
request list, and was pushed to UFR [unfunded requirements] 
list, or was it initially put in the UFR list?
    General McKenzie. Sir, I will have to come back to you on 
the details of that. I believe we are responding to a very 
reasonable, understandable desire by the Air Force to divest 
its legacy systems in their request. So we were reacting to 
that. I will have to come back to you with a detailed answer to 
that, and I will.
    [The information referred to can be found in the Appendix 
on page 102.]
    Mr. Rogers. Great. And I very much appreciate your 
Birmingham, Alabama accent. I am glad you haven't lost it in 
all your years of service around the world.
    General McKenzie. Sir, thank you.
    Mr. Rogers. I picked up on it real quick.
    General Townsend, your recent completion of the Flintlock 
exercise 2020 with your African partners, tell me what, if 
anything, that did to increase your capability to combat 
violent extremists in the region?
    General Townsend. Thanks, Congressman. I would like to also 
join General McKenzie in his comments about the ISR. We are in 
the same boat as CENTCOM. So we understand that those resources 
could be used elsewhere in the world. We also know that the Air 
Force would like to transition to hire in more capable 
platforms, and they are going to have to divest some of the 
lower-end stuff. But the lower-end stuff works really well for 
us in AFRICOM and in CENTCOM.
    On your question about Flintlock, so Flintlock is an 
exercise for special operations forces, and it is very much 
directly focused on counterterrorism. It is about improving and 
building partner capacity. So these countries come together, 
and we operated this year in Mauritania and in Senegal were the 
two main areas of focus.
    And I think that--well, you can just read from some of the 
quotes from some of the press reports of the participants how 
much they thought they got out of Flintlock. Flintlock is one 
of our more successful exercises, and I think it helps build 
capacity for counterterrorism operations in Africa writ large.
    Mr. Rogers. And it is an annual exercise?
    General Townsend. It is.
    Mr. Rogers. How many years has it been taking place?
    General Townsend. I am sorry, I didn't hear the question.
    Mr. Rogers. How many years has it been taking place?
    General Townsend. I don't know. I will have to take that 
and get back to you on that.
    [The information referred to can be found in the Appendix 
on page 102.]
    Mr. Rogers. Ms. Wheelbarger, tell me about the Department's 
objectives with Syria, and how they comply with the overarching 
objectives of CENTCOM AOR?
    Ms. Wheelbarger. The military's objectives or the 
Department's objective in Syria remains the D-ISIS, enduring 
defeat of ISIS. The U.S. Government has broader objectives in 
Syria, which includes also political settlement along the lines 
of 2254, the U.N. process, as well as having fewer Iranian 
forces in Syria.
    But the military component is the D-ISIS campaign. And we 
have, you know, never--we have continued that fight 
continuously, even while we repositioned our forces, based on 
Presidential guidance over the years.
    Mr. Rogers. Thank you. I yield back.
    The Chairman. Okay. We are going to do Mr. Carbajal and Mr. 
Gallego, and then we are going to go do the classified brief.
    So, Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair, and welcome to all the 
witnesses.
    China has steadily increased its influence in Africa 
through its Belt and Road Initiative, BRI, showing the 
effectiveness of soft power. China has pledged $60 billion in 
new financing for African countries, and is now the continent's 
biggest trading partner, with Sino-African trade topping $200 
billion per year. While there is bipartisan criticism for BRI, 
the U.S. must be able to offer an alternative narrative.
    Secretary Wheelbarger, what actions has DOD taken in 
conjunction with other Federal agencies to offer an alternative 
to BRI in Africa? I know this was raised earlier, but I am not 
sure the answers were as substantive as they can be.
    Ms. Wheelbarger. Of course. So, the administration does 
have a policy to increase trade and development on the 
continent. It is called Prosper Africa. I think the efforts are 
primarily focused, again, other agencies, but the idea is how 
can we make the economic models within Africa comport more with 
our industry standards, or our economic way of doing business 
rather than just sort of the Chinese way of just sort of 
flowing in money.
    We do, of course, recognize that a lot of this has to do 
with how we speak to our partners and how we can highlight that 
their short-term economic gains in the near term might result 
in long-term loss of sovereignty. And we have seen this in 
other countries.
    And I think many of our African partners are actually 
starting to see that that is affecting them, that the economic 
benefits that they think they are going to get rapidly aren't 
necessarily accruing to them specifically. Many Chinese 
companies that are there, they don't hire a local workforce. 
They are really just extracting the resources and not providing 
a lot of benefit to the countries themselves.
    So it is not just what we can do in addition to bringing 
economic might in, but, also, highlighting that they are 
actually setting themselves up for a long-term challenging 
relationship if they are going to rely on Chinese monetary 
investment.
    Mr. Carbajal. Thank you.
    General Townsend, has BRI undermined or threatened 
partnerships or security cooperation on the continent?
    General Townsend. I think the short answer is yes. I think 
that BRI is just part of a larger strategic approach that China 
has not only to Africa, but the world, but in Africa it is 
playing out.
    Their approach is Belt and Road Initiative, bilateral 
engagement, multilateral engagement. It is very much a whole-
of-government approach. It is easier for them to orchestrate 
their whole-of-government, maybe, than it is for us to do so. 
And they are putting a lot of money in.
    So, without question, they are able to buy influence in 
Africa, not only from partners maybe who are willing to take 
bribes, but they are willing to buy--they can buy influence 
from even pretty strong partners, because they are partners in 
need.
    Mr. Carbajal. Thank you.
    I want to turn to climate change and its nexus with our 
national security. Nine of 10 most climate change vulnerable 
states are in sub-Saharan Africa, and in a region whose total 
population is expected to double between now and 2050.
    General Townsend, I am sure you have considered how the 
changing climate will impact security needs and operations. How 
are you managing the risk of regional instability due to the 
impacts of climate change, such as increasingly dangerous 
natural disasters and food and water insecurity?
    General Townsend. Well, Congressman, as you said, we see 
the effects of climate change all over Africa today. 
Desertification, the creeping southward of the Sahara Desert is 
one of those. Competition for water, which has a potential to 
erupt into state-on-state conflict in a couple places. And we 
are dealing with locust swarms. Not only do we have 
coronavirus, we have locust swarms on the African continent in 
East Africa right now.
    So these are all problems that we have to deal with. And 
they don't really have military solutions. This is where we 
have to work with our partners, not only in our own State 
Department, in our own USAID, but, also, NGOs [nongovernmental 
organizations] and international partners as well.
    Mr. Carbajal. Do you feel we are being effective, taking a 
whole-of-government approach with all these different agencies, 
addressing this issue?
    General Townsend. Well, I think some of these challenges 
defy solutions by any one nation, desertification and the water 
competition, for example. With the smaller scale problem of 
Ebola and locust swarms, I think we are.
    There is an international effort to help, and I know the 
United States is contributing to both of those. And, in fact, 
in the case of Ebola, the countries that are dealing with that 
have developed a self-capacity to handle that problem without a 
lot of outside assistance. That is an example of where we have 
helped.
    Mr. Carbajal. Thank you, General.
    Mr. Chair, I yield back.
    The Chairman. Thank you.
    Mr. Gallego.
    Mr. Gallego. Thank you.
    Ms. Wheelbarger, we have heard a number of data points 
about our African partners, AFRICOM itself getting less 
attention and funding. What is the risk that we are accepting 
in doing so?
    Ms. Wheelbarger. I will take this opportunity to highlight 
that the Secretary has not made any decisions other than moving 
the SFAB into the continent. He is continuing to review all 
options, weighing that against the risk. And I think, from my 
perspective, one of the primary ones is the long-term risk of 
the evolution and metastasization of terrorist organizations. 
They may look one way today, but if you don't maintain the 
pressure where they exist, they may evolve in the future where 
they have both the capability and the will to attack us in the 
homeland. So our ability to maintain focus across the continent 
is really necessary in this risk calculation.
    Mr. Gallego. Thank you.
    General Townsend, what is your opinion on this increased 
risk that she identified?
    General Townsend. I think I agree with her assessment of 
the risk, and I also agree with her characterization that so 
far, no decisions have been made other than we have gained an 
SFAB for Africa, AFRICOM.
    Mr. Gallego. To follow up, General Townsend, I noticed on 
the front page of your testimony you have a statement that 
says: ``A secure and stable Africa is an enduring American 
interest.''
    So would you agree that scaling back our already modest 
Africa presence will mean that your command will do less--and 
will be less resourced to fight for the national interests, our 
national interests on the African continent?
    General Townsend. Congressman, I agree that if we have less 
resources, we will be able to do less.
    Mr. Gallego. So then just to follow up, and this could be 
to anyone at the table here, if AFRICOM is realigning to deal 
with the great power competition, why is the security 
cooperation budget for the continent planning for a $72 million 
cut? Where will these programs be cut? What parts of the 
continent will these be cut from? Because it seems it is 
contradicting everything that we are hearing. If we are going 
to realign to, you know, focus on big power competition, then 
we should show that in the budget also.
    Ms. Wheelbarger, do you want to start?
    Ms. Wheelbarger. I will start by just highlighting again, 
the zero-based review that the Secretary is doing looking at 
resources in Africa, his intent is to see if the missions that 
we recognize are critical and need to achieve can be done in 
more efficient or effective ways. This doesn't necessarily mean 
absorbing more risk. It could mean just is there a better way 
to do the mission that we are already doing.
    With respect to security cooperation writ large, we have a 
lot of global requirements on security cooperation. My 
perspective is, particularly the theaters that have low 
posture, you need to look at other tools that you have at your 
disposal. And, therefore, security cooperation assistance, 333 
programs, for example, are invaluable to maintaining the 
security partnerships we have. With respect to the specific 
programmatic numbers that you brought up, unless General 
Townsend has specifics, I think we are probably going to have 
to take the specifics for the record.
    [The information referred to can be found in the Appendix 
on page 102.]
    Mr. Gallego. General Townsend.
    General Townsend. I would just add, I think some of the 
most important programs that we have are programs like FMF 
[Foreign Military Financing], IMET [International Military 
Education and Training], FMS [Foreign Military Sales], 333 
programs, State Partnership Programs. A lot of those programs I 
am advocating for are not even Department of Defense programs. 
Those are tremendously valuable for us, especially in global 
power competition.
    [The information referred to can be found in the Appendix 
on page 102.]
    Mr. Gallego. It just seems like $75 million compared to how 
big our budget is seems like, you know, it would be very naive 
for us to just cut that funding, considering I think it does do 
good work.
    Just last question, because they are probably our closest 
allies on the continent and have the most experience. Have you 
had discussions with our French allies about their posture if 
we make decisions about our posture in Africa altogether? Ms. 
Wheelbarger.
    Ms. Wheelbarger. Yes. The Secretary has had several 
meetings with his counterpart Minister Parly. She understands 
the Secretary's need to restore readiness to the force and 
review all missions and all support to foreign partners. The 
French do highlight, of course, the importance of U.S. enabling 
support to their operations. Just some capabilities they simply 
do not have. And what we have been doing is trying to encourage 
them to speed up their decision making on having those 
capabilities for themselves so they no longer are reliant on 
United States support.
    Mr. Gallego. Thank you. I yield back.
    The Chairman. Thank you. That will conclude this portion of 
the hearing. We will give you like a 10-minute break and we 
will reconvene at 12:10 at 2212.
    Thank you, we are adjourned.
    [Whereupon, at 12:01 p.m., the committee proceeded in 
closed session.]

     
=======================================================================

                           A P P E N D I X

                             March 10, 2020

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 10, 2020

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 10, 2020

=======================================================================

      

            RESPONSE TO QUESTION SUBMITTED BY MR. GALLAGHER

    General McKenzie. The FY21 President's Budget (PB) assumed a DOD 
presence in Afghanistan of 8,600 for the entire year, from 1 October 
2020 to 30 September 2021. Should the conditions support a further 
reduction of troops, and under the direction of the POTUS, the 
Department, with significant input from the Services, will review the 
budget request. Any reductions to the request (savings) will depend 
upon drawdown timelines, maintenance schedules for redeploying 
equipment, base closure costs, the amount of Afghanistan Security 
Forces Fund that must be retained to support the Afghanistan National 
Defense Security Forces, etc. There is no scenario where the OFS FY21 
request would go to $0.   [See page 24.]
                                 ______
                                 
          RESPONSES TO QUESTIONS SUBMITTED BY MS. TORRES SMALL
    General McKenzie. Currently, the U.S. Central Command is employing 
Counter-Unmanned Aircraft Systems (C-UAS) in response to urgent 
operational needs using existing and commercially available 
capabilities. Some examples do exist of AI supporting C-UAS systems to 
detect, classify, and identify small UAS and separate friend from foe. 
AI has also been shown to support frequency spectrum management and 
electronic warfare attack against adaptive threat systems. This becomes 
even more critical when dealing with swarms of systems. I can provide 
more details under a separate cover.   [See page 25.]
    General McKenzie. The Secretary of Defense designated the Secretary 
of the Army as the DOD Executive Agent (EA) for Counter-Small Unmanned 
Aircraft Systems (C-sUAS). In this capacity, the EA will lead, 
accelerate, and streamline the DOD enterprise C-sUAS effort in 
coordination with the Services, Joint Staff, and OSD.
    The Joint Staff and the Services are still working to review and 
refine the objective Joint C-UAS requirements. These requirements will 
help shape the future C-UAS capability and will determine how 
technologies such as AI and autonomous systems might best fit into that 
future solution.   [See page 25.]
    General Townsend. The national security cost to the U.S., our 
allies and partners include threat to our operational security and 
deployed forces in active theaters and potential loss of access and 
influence in regions and chokepoints critical to U.S. security and 
economic interest, for example; the Bab al-Mandeb, Suez Canal, the 
Straits of Sicily, Strait of Gibraltar, and the Mozambique Channel. 
These considerations have driven the engagements of U.S. Africa Command 
with countries such as Morocco and Djibouti, where China has also 
sought to expend their influence.   [See page 26.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. HOULAHAN
    General McKenzie. Cyber is a dynamic, man-made battle space that 
requires a concerted effort across all COCOMs, Services, and Agencies, 
as well as our allies and partners, in order to enable a collective 
defense. My focus remains on ensuring Cyber is integrated throughout 
all operations while simultaneously ensuring we are postured to protect 
our critical assets from cyber-attacks. This requires a highly 
specialized workforce that not only understands the Information 
Technology complexities and terrain, but also the adversaries' 
capabilities and intent. We are closely aligned with U.S. Cyber Command 
(CYBERCOM) and their subordinate organizations, Joint Force 
Headquarters-Cyber, and the Cyber Operations Integrated Planning 
Element. They have established an effective construct to oversee cyber 
mission force readiness, employ offensive and defensive cyber forces, 
and enhance situational awareness. However, cyber is still a growing 
sector of the multi-domain approach to our future force employment and 
currently, the cyber workforce is still a high demand but low density 
operational force. CYBERCOM is undertaking a series of studies on the 
capacity of the cyber mission force and their ability to meet current 
and future demands. I am confident that the investments made thus far 
have enhanced our readiness, as we are collectively committed to 
developing adaptive programs that will allow us to outpace our 
adversaries.   [See page 33.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. GALLEGO
    Ms. Wheelbarger. For FY 2021, The Secretary of Defense is 
rebranding the DSCA Security Cooperation Account as the ``National 
Defense Strategy Implementation (NDS-I) Account'' to reflect the role 
security cooperation plays in advancing the National Defense Strategy 
and consolidating multiple funding lines into the account to provide 
greater flexibility in executing programs according to NDS objectives. 
The Department anticipates this consolidation will result in greater 
efficiencies and cost savings through increased scrutiny combined with 
active prioritization and coordination to ensure security cooperation 
efforts focus on NDS objectives. The Secretary has requested a broad 
review of programs globally in order to align resources with our 
National Defense Strategy. These reviews ensure programs and readiness 
that allows the Department of Defense to accomplish prioritized 
objectives. The Department of Defense intends to brief relevant 
Congressional Committees, as well as other concerned Members, prior to 
implementing any future decisions.   [See page 41.]
    General Townsend. I would just add, I think some of the most 
important programs that we have are programs like 333, FMF, FMS, IMET 
and the State Partnership Program are critical whole of USG programs we 
use for Global Power Competition in Africa. We have collaborated with 
the DOD and have reduced the proposed 333 cuts from $72 million to $55 
million which shapes our focus in countries such as Nigeria, Chad, 
Niger, Morocco, Burkina Faso, Kenya, Ethiopia, and Djibouti. We will 
continue to prepare and posture additional program opportunities, based 
on the NDS priorities, should increases in funding occur this year.   
[See page 41.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. ROGERS
    General McKenzie. The Department funds ISR requirements from both 
base and OCO funding. This specific request would be temporary in 
nature, to support operational taskings and military operations to 
defeat ISIS, deter Iran, and ensure freedom of navigation across the 
AOR.   [See page 37.]
    General Townsend. Exercise FLINTLOCK has occurred annually since 
2005 in Africa. This year's exercise that just concluded in February of 
2020 marked the 16th year of exercise FLINTLOCK in Africa.   [See page 
38.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 10, 2020

=======================================================================

                QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. Have you seen a degradation in the effectiveness of 
the IRGC Quds Force in Iraq and Syria after the strike which killed 
Qasem Soleimani?
    We've communicated to Iran and the IRGC our redline that killing an 
American will result in a serious response: we killed Soleimani and 
Mohandes in response to their lethal attack on Americans in Iraq.
    Senior Taliban leadership appear to believe they can kill U.S. and 
Afghan security forces with impunity: what costs will be in imposed on 
senior Taliban leaders should they kill an American? Can we use the 
IRGC model with the Taliban?
    Ms. Wheelbarger. The depth and breadth of relationships Solemani 
cultivated over time with a diverse variety of key players in Iraq will 
be difficult for anyone else in Iran to replicate. It is still too soon 
to determine with confidence if there has been a major change in 
Iranian influence in Iraq, but the loss of such a key Iranian player is 
likely to decrease that influence in time. We have not seen a change in 
IRGC effectiveness in Syria as a result of the Solemani strike. Since 
the signing of the Agreement for Bringing Peace to Afghanistan between 
the Islamic Emirate of Afghanistan, which is not recognized by the 
United States as a state, and is known as the Taliban, and the United 
States of America (referred to as the U.S.-Taliban agreement), the 
Taliban have ceased attacks targeting U.S. and coalition forces. 
Nevertheless, U.S. Forces-Afghanistan (USFOR-A) places the highest 
priority on force protection and remains postured to defend against any 
potential threats to American personnel. Should the Taliban attack or 
kill an American, the United States would re-evaluate the terms of the 
agreement and will not hesitate to respond appropriately. U.S. response 
would depend on the specific conditions of an attack on a service 
member. Removing the leader of the Taliban would create a short term 
disruption in operational planning, but will not have a significant 
effect on Taliban operations as demonstrated by the previous removals 
of Taliban leaders. Pursuing a durable peace settlement in Afghanistan 
is the best path towards protecting service members.
    Mr. Lamborn. In your testimony, both of you point out that ISIS has 
the ability to constitute in Iraq and Syria if the U.S. and our 
coalition partners do not maintain pressure on them. With that in mind 
I'd like to ask you about the level of cooperation and coordination 
between the U.S. and the Government of Iraq.
    Has the Government of Iraq been allowing full freedom of movement 
and military independence to the U.S.?
    Have our counter-ISIS operations been hampered at all by the Iraqi 
government's restrictions on U.S. and our partners?
    If yes to either question, can you characterize the nature of their 
interference?
    Ms. Wheelbarger. The Department of Defense continues to engage with 
the Iraq Ministry of Defense and Iraqi Security Forces (ISF) on a 
regular basis through the Operation Inherent Resolve mission to defeat 
ISIS, the Office of Security Cooperation-Iraq, and through senior 
leader bilateral discussions. At the moment, all train and advise 
activities with the ISF have been temporarily paused due to concerns 
over the spread of COVID-19; however, U.S. and Iraqi leaders continue 
to cooperate on a wide-range of security issues using means other than 
in-person meetings until such time normal operations are able to 
resume. The State Department announced on 7 April that it plans to 
engage with the Government of Iraq on a Strategic Dialogue scheduled to 
take place in June. The purpose of the dialogue will be to come to a 
mutual understanding regarding the future of the U.S. military presence 
and economic cooperation that serve as the foundation of the strategic 
bilateral relationship. The U.S. Department of State delegation will be 
led by Ambassador David Hale, Under Secretary of State for Political 
Affairs. The delegation will also include representatives from the 
Department of Defense, Department of the Treasury, and other relevant 
departments and agencies. In general, the Government of Iraq (GoI) has 
allowed freedom of movement for U.S. forces within Iraq. As with any 
country, there are sections of Iraqi airspace designated as Restricted 
Operating Zones (ROZ). In Iraq, ROZs are typically established over 
religious sites and restrict overflight for all aircraft. U.S. and 
Coalition aircraft are precluded from operating in these areas without 
special approval from the Iraqi government; however, the GoI has 
approved Coalition aircraft participating in the counter-ISIS mission 
to operate in these areas.
    Mr. Lamborn. It is my assessment that our adversaries have 
discovered the limits in our current missile defense architecture, 
including lack of 360 degree radar, lack of sufficient capacity, and 
lack of capability against lower tier threats. We have seen 20 air 
attacks, including rockets, on U.S. assets in the Middle East in the 
past 5 months.
    What are you currently able to do to protect our men and women in 
uniform and our strategic assets currently under threat from these 
ongoing attacks in your AOR?
    Wouldn't fielding to your AOR the Iron Dome batteries the Army 
recently procured, as soon as they are ready (and as mandated by 
Congress), help to address this threat as an initial step even if you 
required more systems in the next few years to further address the 
threat?
    I know the Army wants to incorporate every missile defense system 
into its still-developing IBCS, but wouldn't placing a battle-tested 
system into theatre now help protect our troops and strategic assets 
and deter future such attacks?
    General McKenzie. [The information is classified and retained in 
the committee files.]
    Mr. Lamborn. Have you seen a degradation in the effectiveness of 
the IRGC Quds Force in Iraq and Syria after the strike which killed 
Qasem Soleimani?
    We've communicated to Iran and the IRGC our redline that killing an 
American will result in a serious response: we killed Soleimani and 
Mohandes in response to their lethal attack on Americans in Iraq.
    Senior Taliban leadership appear to believe they can kill U.S. and 
Afghan security forces with impunity: what costs will be in imposed on 
senior Taliban leaders should they kill an American? Can we use the 
IRGC model with the Taliban?
    General McKenzie. [The information is classified and retained in 
the committee files.]
    Mr. Lamborn. In your testimony, both of you point out that ISIS has 
the ability to constitute in Iraq and Syria if the U.S. and our 
coalition partners do not maintain pressure on them. With that in mind 
I'd like to ask you about the level of cooperation and coordination 
between the U.S. and the Government of Iraq.
    Has the Government of Iraq been allowing full freedom of movement 
and military independence to the U.S.?
    Have our counter-ISIS operations been hampered at all by the Iraqi 
government's restrictions on U.S. and our partners?
    If yes to either question, can you characterize the nature of their 
interference?
    General McKenzie. The Government of Iraq (Gol) did not restrict 
coalition forces during ground operations with Iraqi Security Forces 
(ISF), however Gol did restricted overflight of several cities in Iraq 
without prior approval from Iraqi Air Traffic Control (ATC). Coalition 
Forces operate within Iraq at the request of the Iraqi government to 
conduct Defeat-lSIS operations and to share the responsibility of 
protecting Coalition Forces throughout the country. Yes. The Government 
of Iraq (Gol) restricted U.S. and coalition airborne assets through the 
establishment of Restricted Operating Zones (ROZ). The Gol placed ROZs 
over several cities and areas in Iraq. ROZs restrict overflight without 
prior approval from Iraqi Air Traffic Control (ATC). In some cases, 
ROZs degrade the coalition's ability to observe indicators and warnings 
of potential threats to U.S. and Coalition Forces.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. The JSTARS was brought back from mission operations in 
CENTCOM and returned to the region only a few months later. What is the 
current role of the JSTARS in the CENTCOM AOR? As you assess your ISR 
requirements and the various systems available to you to fulfill these 
requirements, how critical is Joint STARS? Specifically, could you 
perform the wide area surveillance mission without it?
    General McKenzie. Joint Surveillance Target Attack Radar System 
(JSTARS) is primarily employed to maintain vigilance on Iranian 
maritime and land based weapons systems in the Arabian Gulf. In the 
event of credible imminent threats from Iranian-backed militia in Iraq, 
JSTARS would support force protection of deployed forces in Iraq. At 
the strategic level, its Moving Target Indicator (MTI) capability 
enables us to watch adversary nation force movements while standing off 
outside of their airspace. Joint Surveillance Target Attack Radar 
System (JSTARS) is the premier Moving Target Indicator (MTI) system in 
the world. Its MTI capability allows it to collect on target types that 
few other MTI systems can, with a larger field of view. Thus JSTARS is 
employed in our highest priority areas, and is in very high demand. 
Yes, however, there would be a degradation of sensing capability. 
Moving Target Indicator (MTI) is one of many sensors that allow for 
wide area collection, including other wide area electro optical full 
motion video (FMV) and Signals Intelligence (SIGINT) sensors. Joint 
Surveillance Target Attack Radar System MTI tracks vehicles--combined 
with FMV and SIGINT--allows us to develop enemy targets, determine 
their typical movement patterns, and protect our forces.
    Mr. Scott. If more JSTARS were available, could our warfighters and 
tactical intelligence units benefit from its wide area surveillance 
capability in CENTCOM and AFRICOM? In short, could you use more Joint 
STARS in theater?
    General McKenzie. Yes to both questions.
    Mr. Scott. What is the role of the U.S. Coast Guard in CENTCOM?
    General McKenzie. The U.S. Coast Guard (USCG) has the mandate to 
conduct operations under Title 10 and Title 14 U.S. Code, but while 
under U.S. Naval Forces Central Command (NAVCENT) they operate almost 
exclusively under Title 10 and Department of Defense Rules of 
Engagement. The USCG supports U.S. Central Command (CENTCOM) in various 
ways: First, USCG Patrol Forces Southwest Asia (PATFORSWA) contribute 
to the organic surface fleet under the operational control of NAVCENT. 
These 6 cutters support the NAVCENT missions of maintaining the free 
flow of commerce and global freedom of navigation while enabling U.S. 
and coalition maneuver across the contested maritime environment of the 
Arabian Gulf. Secondly, PATFORSWA's Maritime Engagement Team (MET) 
serves a dual purpose of maintaining warfighting competencies for the 
unit through training efforts and conducting Theater Security 
Cooperation for NAVCENT's Planning and Engagement Directorate. The MET 
conducts interoperability engagements and subject matter expert 
exchanges with regional and international allies and partners. These 
engagements normally focus on atsea visit, board, search, and seizure 
(VBSS) of vessels of interest. During the last twelve months, the MET 
conducted 28 engagements. There is also the USCG Maritime Security 
Response Team that provides an Advanced Interdiction Team to NAVCENT. 
This detachment is a tactical assault force capable of conducting 
operations including opposed boardings under NAVCENT's maritime 
security operations mission. Lastly, the USCG provides the Maritime 
Infrastructure Port Facility Training Advisory Group to the Kingdom of 
Saudi Arabia under a Title 22 security assistance case. This team is 
responsible for the mentorship of a 5,000-person Saudi Arabian force 
responsible for the organic protection of critical maritime 
infrastructure. The team operates under the authorities of the Chief of 
Mission and is operationally controlled by USCG Headquarters Office of 
International Affairs.
    Mr. Scott. If more JSTARS were available, could our warfighters and 
tactical intelligence units benefit from its wide area surveillance 
capability in CENTCOM and AFRICOM? In short, could you use more Joint 
STARS in theater?
    General Townsend. AFRICOM has a valid Ground Moving Target 
Indicator (GMTI) requirement, which JSTARS provides, but JSTARS is not 
the preferred option for AFRICOM. Our demand is more specific to point-
area GMTI versus wide-area collection. As a result, JSTARS could be 
utilized in Africa but is not the optimal GMTI capability to support 
today's current AOR-wide dynamic Counter Violent Extremist Organization 
(C-VEO) fight.
    Mr. Scott. What is the role of the U.S. Coast Guard in AFRICOM?
    General Townsend. The U.S. Coast Guard's unique missions, 
authorities, and responsibilities play a small but important role in 
the development of partner nations' maritime security throughout the 
African continent. U.S. Africa Command benefits from the assignment of 
Coast Guard officers and senior enlisted members at our headquarters in 
Stuttgart, Germany. These Coastguardsmen and women lend their 
operational expertise as legal advisors, cuttermen, naval aviators and 
law enforcement experts in the execution of the African Maritime Law 
Enforcement Partnership Program, or AMLEP. The Coast Guard also employs 
its expertise with members assigned to U.S. Naval Forces Africa-Europe, 
Naval Combined Task Force 65, and as part of Coastal Riverine Squadrons 
that escort vulnerable and high-value maritime traffic in Djiboutian 
waters.
    Mr. Scott. Are there any plans to establish a Joint Interagency 
Task Force like JIATF South within AFRICOM's AOR? How much would it 
cost? What would be the advantages of establishing a JIATF for AFRICOM?
    General Townsend. There are no current plans to establish a Joint 
Interagency Task Force (JIATF) within AFRICOM's Area of Responsibility. 
The associated cost to operate a JIATF is uncertain without a thorough 
analysis. Were we to pursue a JIATF it could potentially allow us to be 
more responsive to interagency requests within the region. It could 
bring additional or unique resources to bear on specific threats in 
Africa where criminal organizations converge with violent extremists 
and terror groups to move drugs, weapons, and other illicit goods. 
Furthermore, a JIATF could serve as AFRICOM's executive agent to 
coordinate DOD support to Law Enforcement counterdrug, counter threat 
finance, and other counter transnational organized crime initiatives 
within the AFRICOM area of responsibility. Again, AFRICOM does not 
currently plan to pursue a JIATF.
    Mr. Scott. Do you support the assignment of additional Coast Guard 
personnel to CJTF-HOA? Could Africa benefit from more Coast Guard 
cutter port visits? Do you support increased Coast Guard maritime 
engagement in and around East Africa?
    General Townsend. While there are currently no U.S. Coast Guard 
personnel assigned to AFRICOM's Combined Joint Task Force-Horn of 
Africa (CJTF-HOA) headquarters, the U.S. Coast Guard serves as an 
essential force provider to the multiservice (U.S. Navy/U.S. Coast 
Guard) Coastal Riverine Squadrons, who deploy to CJTF-HOA to conduct 
force protection of strategic shipping and naval vessels operating in 
the maritime approaches to Djibouti. CJTF-HOA's personnel structure is 
currently under review, and should inform the potential for any 
additional personnel there. Both U.S. Africa Command and its African 
partners, around the continent not just in the east, would gladly 
welcome any additional maritime presence in Africa, including the U.S. 
Coast Guard. Since most African partners do not employ their navies and 
coast guards in an expeditionary capacity, the U.S. Coast Guard serves 
as an ideal model for maritime security and governance. This past year, 
U.S. Coast Guard Cutter THETIS participated in AFRICOM's multi-national 
maritime exercise OBANGAME EXPRESS and leveraged its maritime law 
enforcement authorities in combined maritime law enforcement Operation 
JUNCTION RAIN with our African partners. Recognizing the value of U.S. 
Coast Guard support in the region, I recently requested additional U.S. 
Coast Guard cutter and law enforcement detachment support for the 
fiscal year 22-26 resource planning cycle.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GALLEGO
    Mr. Gallego. I understand that shifts to the budgets associated 
with USAFRICOM may result in reductions to our force posture. In the 
hearing, General Townsend indicated that his command will ``do less 
with less.'' If ``less'' is now what we expect from DOD in Africa, have 
we discussed our force posture changes with our African allies and 
partners, many of whom cannot sustain counterterrorism efforts on their 
own? If so, what is their response, and what is our plan to mitigate 
risk stemming from a likely increase in terrorist activity and other 
activity counter to U.S. interests?
    Ms. Wheelbarger. Through the Combatant Command Review process, we 
are evaluating the best resource-informed balance for USAFRICOM along 
with global tradeoffs. The USAFRICOM review is ongoing. It is best to 
wait until this review is complete before we have substantive 
discussions about possible force posture changes with our African 
allies and partners. The outcome of the review would also inform a plan 
to mitigate risk from terrorist activity and other activity counter to 
U.S. interests.
    Mr. Gallego. Following the killing of General Soleimani and the 
Iranian retaliation attack on al Asad Airbase, there was a real risk of 
open war with Iran. What is the internal DOD plan for escalation 
management in the event of another crisis with Iran? Please include 
detail on how OSD, CENTCOM, and other relevant parts of DOD would seek 
deescalation in the event of another crisis.
    Ms. Wheelbarger. The President has been clear--we do not want a war 
with Iran. In response to repeated attacks, the United States has 
increased our defensive posture and taken action intended to degrade 
the capabilities of those groups that pose a risk to U.S. forces. DOD 
continuously considers the potential escalatory and deescalatory 
effects of all of its actions. The Department manages escalation in the 
Middle East by maintaining a deterrent posture, ensuring escalation 
dominance, messaging our intentions, and collaborating with the State 
Department to leverage our nation's diplomatic tools to achieve 
deescalatory effects. In addition, we continue to raise the threat 
posed by Iranian proxies with our Iraqi partners and stress the need 
for the Government of Iraq to mitigate these threats.
    Mr. Gallego. Following the killing of General Soleimani and the 
Iranian retaliation attack on al Asad Airbase, there was a real risk of 
open war with Iran. What is the internal DOD plan for escalation 
management in the event of another crisis with Iran? Please include 
detail on how OSD, CENTCOM, and other relevant parts of DOD would seek 
deescalation in the event of another crisis.
    General McKenzie. We do not seek escalation with Iran. We seek to 
deter Iran from further aggressive and offensive actions against the 
U.S., the Coalition, and our partners in the region. In order to 
prevent escalation, and if required to manage escalation, at the 
direction of the Secretary of Defense, U.S. Central Command has 
proactive measures in place to deter further action by Iran and its 
proxies. Over the last few months the U.S. has deployed capability into 
theater while repositioning forces to protect them from a range of 
threats. Concurrently, we are working with our partners and allies to 
integrate existing assets across the peninsula to provide a more 
comprehensive defense of the region. An essential part of avoiding 
escalation is maintaining a posture that enables an effective defense. 
The President has made it clear that a loss of U.S. life will result in 
a response. I will provide my advice through the Chairman of the Joint 
Chiefs of Staff to the Secretary of Defense and the President on the 
appropriate military-responses. Our main goal is to deter Iran from 
using aggression against U.S. forces and interests, to include our 
partners and allies, in the region.
    Mr. Gallego. I understand that shifts to the budgets associated 
with USAFRICOM may result in reductions to our force posture. In the 
hearing, General Townsend indicated that his command will ``do less 
with less.'' If ``less'' is now what we expect from DOD in Africa, have 
we discussed our force posture changes with our African allies and 
partners, many of whom cannot sustain counterterrorism efforts on their 
own? If so, what is their response, and what is our plan to mitigate 
risk stemming from a likely increase in terrorist activity and other 
activity counter to U.S. interests?
    General Townsend. U.S. Africa Command is working closely with the 
Secretary of Defense, Office of Secretary of Defense, and the Joint 
Staff through the Combatant Command Review to consider strategic 
objectives and potential force posture changes. Our allies and partners 
are aware of these reviews and understand the importance of judiciously 
allocating defense resources. We are working with the Office of the 
Secretary of Defense on mitigating threats and messaging our allies/
partners to address their concerns once the Secretary makes decisions.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. VELA
    Mr. Vela. What strategically is CENTCOM's top three priorities for 
the region? What value do the forces in Saudi Arabia play in achieving 
CENTCOM's strategic priorities?
    General McKenzie. U.S. Central Command's (USCENTCOM) strategic 
priorities for the region remain deterring Iran, resolving the conflict 
in Afghanistan, and maintaining our defeat ISIS campaign in Syria and 
Iraq. With Iran, our military elements of power in theater support the 
maximum pressure campaign. In Afghanistan, we seek a negotiated 
settlement that supports long-term U.S. security requirements, namely 
the prevention of terrorist attacks against the Homeland from 
Afghanistan. USCENTCOM's current posture in Syria and Iraq, mostly 
through enablers and advise/assist units, is sufficient to achieve the 
objectives of the defeat-lSIS campaign. The forces deployed to Saudi 
Arabia provide operational depth to maintain a credible deterrent to 
escalating Iranian actions and are part of our broader campaign to 
counter Iranian malign influence in the region.
    Mr. Vela. President Trump stated last week that it's possible the 
Taliban will overrun the Afghanistan Government as a result of this 
peace deal. In your military opinion, what is the likelihood this would 
happen with the withdrawal of U.S. troops, and what would be the 
consequences of the Taliban again ruling Afghanistan?
    General McKenzie. Assuming the Government of the Islamic Republic 
of Afghanistan and Taliban are able to reach a political settlement, 
the main threat to the Afghanistan National Defense and Security 
Forces--the Taliban--will be neutralized, and the remaining security 
threats will primarily consist of Violent Extremist Organizations such 
as ISIS-K and criminal organizations. The current peace agreement with 
the Taliban involves the joint participation of the Taliban and the 
government of Afghanistan to establish a lasting political solution. 
The United States has advocated for an inclusive government, which is 
more likely to protect the advances in human rights that the Afghan 
people have come to enjoy. However, if the Taliban were to regain 
control of Afghanistan without the involvement of an inclusive 
government, there are serious concerns from various elements of Afghan 
civil society, particularly women and ethnic minorities, that the human 
rights advances they have achieved would be lost.
    Mr. Vela. The attack at Manda Bay caught us all by surprise. What 
vulnerabilities did AFRICOM identify from this incident? What other 
forward operating based have been assessed at risk? What action have 
been taken to date and what still needs to be done?
    General Townsend. Although the Manda Bay investigation is still 
underway, three general impressions have emerged regarding 
vulnerabilities there. First, a lack of appreciations for the evolved 
threat at all levels of command. Second, a lack of an adequate 
defensive barrier plan for the airfield. Third, a lack of clarity over 
security responsibilities between U.S. and host nation forces. U.S. 
Africa Command and its components have recently assessed our sites for 
vulnerabilities and develop strategies to mitigate risk. Based on the 
violent extremist threat across Africa, I would assess nearly every 
location has a threat and we must remain vigilant to respond. We are 
improving and updating defensive barriers defense, updating our 
technological capabilities, and deploying additional security 
personnel. We also work with partner forces to improve their physical 
security capabilities at shared locations. We have also identified 
funding to support force protection improvements, but as protection is 
a continuous effort we will continue to pursue additional security 
funding.
    Mr. Vela. What is the current situation in Libya? What is the U.S. 
doing in Libya? What are European nations and NATO doing in Libya?
    General Townsend. Libya has been embroiled in civil conflict since 
the 2011 revolution. In April 2019 the self-proclaimed Libyan National 
Army (LNA) launched its ongoing offensive against Tripoli and the UN 
recognized Government of National Accord (GNA). Both the LNA and GNA 
are supported by multiple external nation state actors. United States 
Africa Command (USAFRICOM) supports the Department of State efforts to 
bring stability and political reconciliation to Libya. The U.S. 
Military currently has no DOD personnel in Libya; however, USAFRICOM 
maintains a U.S. unilateral counterterrorism capability to surveil and 
strike ISIS-Libya and AQIM in Libya. This counterterrorism capability 
is predominantly by unmanned aerial systems in coordination with the 
GNA and LNA. European countries have participated in diplomatic 
engagements with both Libyan sides, and external actors, in support of 
United Nations reconciliation efforts. The European Union has started a 
new operation in the Mediterranean Sea with the mission to enforce the 
United Nations' Libya arms embargo and train the GNA Coast Guard/Navy.
                                 ______
                                 
                     QUESTION SUBMITTED BY MR. KIM
    Mr. Kim. Having invested billions of dollars to building the 
capabilities of the Iraqi Security Forces and the Kurdish Regional 
Guard Brigades to fight and defeat ISIS, how are we ensuring that there 
is a plan, funding, and capability for the Iraqis to maintain and 
sustain the equipment and training we have provided over the last 5 
years?
    Ms. Wheelbarger. The Department of Defense, together with Iraqi 
Security Forces (ISF), has made significant gains in the continued 
disruption of ISIS networks and safe havens. After the physical 
destruction of the so-called ``caliphate'', ISIS has transitioned to an 
insurgency and is expected to seek to re-establish governance in 
sparsely populated areas. With the intent of denying an ISIS 
resurgence, the Department plans to direct Fiscal Year (FY) 2021 
funding towards specific ISF and Peshmerga units actively engaged in 
areas identified as enemy sanctuaries. Additionally, the Department is 
transitioning from equipping and logistical support to training and 
sustainment support. An increase in sustainment support, along with 
continued security sector reform efforts, will enable the ISF to 
achieve adequate readiness rates to independently and effectively 
conduct D-ISIS operations. The Department ensures the Government of 
Iraq is taking the appropriate steps to maintain and sustain U.S. 
divested equipment through a 5-year security cooperation plan, 
Congressionally mandated reports, and End-Use-Monitoring for certain 
types of high-valued equipment. State Department announced on 7 April 
that it plans to engage with the Government of Iraq on a Strategic 
Dialogue scheduled to take place in June. The purpose of the dialogue 
will be to come to a mutual understanding regarding the future of the 
U.S. military presence and economic cooperation that serve as the 
foundation of the strategic bilateral relationship. The U.S. Department 
of State delegation will be led by Ambassador David Hale, Under 
Secretary of State for Political Affairs. The delegation will also 
include representatives from the Department of Defense, Department of 
the Treasury, and other relevant departments and agencies.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HOULAHAN
    Ms. Houlahan. General McKenzie, your predecessor, General Votel, 
had stated that cyber will be integrated through all operations, 
however, ``CENTCOM continues to be challenged by constrained resources 
including trained cybersecurity personnel.'' Does CENTCOM continue to 
feel the affects of constrained cyber resources and trained personnel, 
and how would you propose to solve that issue?
    General McKenzie. Cyber is a dynamic, man-made battle space that 
requires a concerted effort across all Combatant Commands, Services and 
Agencies, as well as our allies and partners, in order to enable a 
collective defense. My focus remains on ensuring Cyber is integrated 
throughout all operations while simultaneously ensuring we are postured 
to protect our critical assets from cyber-attack. This requires a 
highly specialized workforce that not only understands the Information 
Technology complexities and terrain, but also the adversaries' 
capabilities and intent. We are closely aligned with U.S. Cyber Command 
and their subordinate organizations. They have established an effective 
construct to oversee workforce development, employ defensive cyber 
forces and enhance situational awareness. I am confident that the 
investments made thus far have enhanced our readiness as we are 
collectively committed to developing adaptive programs that will allow 
us to outpace our adversaries. This will require a sustained effort 
across the Department of Defense with continued investment in people 
and resources.
    Ms. Houlahan. General Townsend, what's your perspective on cyber 
challenges within the AFRICOM area or responsibility?
    General Townsend. U.S. Africa Command is focused on malign 
activities of Global Power Competitors on the continent and their 
ability to influence our African partners. We have established the U.S. 
Africa Command Joint Cyber Center as our primary synchronization 
element to ensure we are focus both our Intel and Cyber planning 
elements with U.S. Cyber Command. I think Cyber is like ISR in that 
every Combatant Commander wants more capability. U.S. Africa Command 
has a nascent, not a robust cyber force, but we are leveraging 
resources to inform our African partners on what the malign actors are 
doing.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GOLDEN
    Mr. Golden. It is clear that Baghdad must stand down the Popular 
Mobilization Forces. Some of these militias, such as Kata'ib Hezbollah, 
are foreign terrorist organizations responsible for killing Americans. 
What actions, if any, are the U.S taking to facilitate this endstate?
    Ms. Wheelbarger. The Popular Mobilization Forces (PMF) are part of 
the Iraqi Security Forces (ISF), reporting to the Prime Minister's 
Office, and its members are Iraqis. Over 40 groups are part of the PMF, 
many of them Shia, but also Sunni, Christian, and Yezidi. Disciplined 
elements of the PMF, those under the control of the Iraqi government 
and beholden to its civilian leaders, were instrumental in the 
territorial defeat of ISIS and we recognize the critical role they 
played in the fight. Some elements, however, are Iranian-backed, 
operate semi-autonomously, and are particularly destabilizing in the 
liberated areas, prioritizing smuggling and extortion for personal gain 
over fighting ISIS. The groups are also responsible for recent attacks 
against facilities hosting U.S. and Coalition forces causing several 
casualties. The Department of Defense supports the Government of Iraq's 
efforts to bring all armed groups fully under state control. This is an 
important step towards ensuring Iraq's future as a strong, sovereign, 
unified, democratic, and prosperous state. We continue to engage with 
the Government of Iraq on the need to gain control over non-compliant 
militia groups that threaten U.S. forces and support their efforts to 
do so. That said, we have an obligation to defend U.S. and Coalition 
forces against attacks and will take the necessary actions to ensure 
the safety of our forces.
    Mr. Golden. The Syrian Democratic Force is currently administering 
prison camps in northeastern Syria containing thousands of ISIS members 
and their families. Is this situation sustainable, and what are we 
doing to help?
    General McKenzie. [The information is classified and retained in 
the committee files.]
    Mr. Golden. It is clear that Baghdad must stand down the Popular 
Mobilization Forces. Some of these militias, such as Kata'ib Hezbollah, 
are foreign terrorist organizations responsible for killing Americans. 
What actions, if any, are the U.S taking to facilitate this endstate?
    General McKenzie. In close coordination with the Ambassador, U.S. 
Central Command continually conducts Key Leader Engagements (KLE) with 
senior Iraqi military officials to urge ISF to bring non-compliant PMF 
units into compliance with the Iraqi law and the rule of law. The 
enduring success of the GOI will be predicated on an ISF that is solely 
responsible and responsive to the GOI. CJTF-OIR continues to reinforce 
and support the ISF efforts to address the security threats posed by 
non-compliant militia groups to both the Government of Iraq and 
Coalition Forces.

                                  [all]
</pre></body></html>
